<html>
<title> - REACHING HARD-TO-COUNT COMMUNITIES IN THE 2020 CENSUS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                    REACHING HARD-TO-COUNT COMMUNITIES IN 
                               THE 2020 CENSUS

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                          OVERSIGHT AND REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 9, 2020

                               __________

                           Serial No. 116-81

                               __________

      Printed for the use of the Committee on Oversight and Reform

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                  Available on: http://www.govinfo.gov
                    http://www.oversight.house.gov or
                        http://www.docs.house.gov
                        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
39-576 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
                        
                        
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   Jim Jordan, Ohio, Ranking Minority 
    Columbia                             Member
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Debbie Wasserman Schultz, Florida    Michael Cloud, Texas
John P. Sarbanes, Maryland           Bob Gibbs, Ohio
Peter Welch, Vermont                 Ralph Norman, South Carolina
Jackie Speier, California            Clay Higgins, Louisiana
Robin L. Kelly, Illinois             Chip Roy, Texas
Mark DeSaulnier, California          Carol D. Miller, West Virginia
Brenda L. Lawrence, Michigan         Mark E. Green, Tennessee
Stacey E. Plaskett, Virgin Islands   Kelly Armstrong, North Dakota
Ro Khanna, California                W. Gregory Steube, Florida
Jimmy Gomez, California              Frank Keller, Pennsylvania
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan
Katie Porter, California
Deb Haaland, New Mexico

                     David Rapallo, Staff Director
                  Russ Anello, Chief Oversight Counsel
                           Amy Stratton Clerk

               Christopher Hixon, Minority Staff Director

                      Contact Number: 202-225-5051
                                 ------                                
                        
                        C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on January 9, 2020..................................     1

                               Witnesses

Ms. Vanita Gupta, President and Chief Executive Officer, The 
  Leadership Conference on Civil and Human Rights
    Oral Statement...............................................     8

Mr. John Yang, President and Executive Director, Asian Americans 
  Advancing Justice
    Oral Statement...............................................    10

Mr. Arturo Vargas, CEO, NALEO Educational Fund
    Oral Statement...............................................    12

Mr. Kevin J. Allis, Chief Executive Officer, National Congress of 
  American Indians
    Oral Statement...............................................    14

Mr. Marc Morial, President and Chief Executive Officer, National 
  Urban League
    Oral Statement...............................................    16

Mr. Darrell Moore, Executive Director, Center for South Georgia 
  Regional Impact, Valdosta State University
    Oral Statement...............................................    19

* The prepared statements for the above witnesses are available 
  at:  https://docs.house.gov.

                           INDEX OF DOCUMENTS

                              ----------                              

The documents listed below are available at: https://
  docs.house.gov.

  * Letter to Mr. Dillingham on the practice of hiring people; 
  submitted by Rep. Connolly.

  * Letter from Mr. Dillingham on the practice of hiring people; 
  submitted by Rep. Connolly.

  * Unanimous Consent: Mr. Moore's PowerPoint presentation; 
  submitted by Rep. Hice.

  * Unanimous Consent: 2018 Census Bureau Report; submitted by 
  Rep. Raskin.

  * Unanimous Consent: Article, The Hill, ``Deportations Lower 
  Under Trump Administration Than Obama;'' submitted by Rep. 
  Cloud.

  * Unanimous Consent: Article, "The Census Could Undercount 
  Those Who Do Not Have Internet;" submitted by Rep. Tlaib.

  * Unanimous Consent: Supreme Court Case - Brief of Businesses 
  and Business Organizations; submitted by Rep. Porter.

  * Letter of Support: YMCA.

  * Letter of Support: Leadership Conference on Civil and Human 
  Rights.

  * Letter of Support: May 2019 Census Bureau Report on the 
  Undercounted.

  * Letter of Support: Report - People with Disabilities.

  * Letter of Support: The Urban Institute.

  * Letter of Support: Epic.org.

  * Letter of Support: AANPH.

 
         REACHING HARD-TO-COUNT COMMUNITIES IN THE 2020 CENSUS

                              ----------                              


                       Thursday, January 9, 2020

                  House of Representatives,
                 Committee on Oversight and Reform,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 10:05 a.m., in 
room 2154, Rayburn House Office Building, Hon. Carolyn Maloney, 
[chairwoman of the committee] presiding.
    Present: Representatives Maloney, Norton, Clay, Connolly, 
Krishnamoorthi, Raskin, Rouda, Wasserman Schultz, Sarbanes, 
Welch, Speier, Kelly, DeSaulnier, Lawrence, Plaskett, Khanna, 
Gomez, Ocasio-Cortez, Pressley, Tlaib, Porter, Haaland, Jordan, 
Gosar, Foxx, Meadows, Hice, Grothman, Comer, Cloud, Gibbs, 
Higgins, Norman, Roy, Miller, Green, Armstrong, and Keller.
    Chairwoman Maloney. We will come to order. Without 
objection, the Chair is authorized to declare a recess of the 
committee at any time.
    With that, I will now recognize myself to give an opening 
statement and Mr. Gomez will follow me with a minute and the 
same will be given to the ranking member.
    Good morning. Thank you to everyone for being here today to 
discuss a topic which is vital to our democracy, the decennial 
census.
    The 2020 census is imminent with counting set to begin in 
Alaska in less than two weeks and across the country on April 
1.
    The Constitution requires every person to be counted, every 
single person living in the United States of America. Not just 
citizens, not just people of a particular political party or 
race. Absolutely everyone.
    I am gravely concerned that the Census Bureau may not be 
prepared to meet this high bar and that the 2020 census could 
leave communities across the country undercounted, 
underrepresented, and underfunded.
    The Government Accountability Office and the Department of 
Commerce Inspector General both agree that the census is not 
where it should be.
    Sadly, under President Trump, we are forced to ask whether 
the failure to address these concerns is due to incompetence or 
is intentional.
    The Census Bureau has been plagued by delays in hiring 
thousands of census workers needed to ensure every person is 
counted. These delays hurt hard-to-count communities the most 
because outreach from trusted voices and nonresponse followup 
are essential in these communities.
    The administration's anti-immigrant policies and its 
illegal effort to add a citizenship question have made an 
accurate count even harder to obtain by sowing fear and 
distrust in communities across the country.
    But this appears to be the point. As Republican operative 
Thomas Hofeller, the so-called Michelangelo of redistricting, 
put it, adding a citizenship question would be, and I quote 
from him, quote, ``advantageous for Republicans and non-
Hispanic whites,'' end quote.
    Ultimately, the administration's goal in trying to add a 
citizenship question seems to be to take the hard-to-count and 
make them the uncounted.
    This is why I introduced a bill last year, the Census ID 
Act, to remove the citizenship question and codify the process 
by which questions are added to the census form.
    When the Supreme Court ruled that the attempt to add the 
citizenship question was illegal, the administration refused 
for almost two weeks to accept the outcome before finally 
following the law.
    Even still, the president is trying to use administrative 
records to collect citizenship data. But this has nothing to do 
with the 2020 census.
    The Census Bureau needs to make clear that everyone can 
participate in the census without fear, that doing so will not 
hurt them or their family, and that their personal data will be 
secure.
    The Census Bureau also faces a host of new challenges as it 
executes the largest census in history and the first to be 
conducted almost mostly and entirely online.
    Cyber threats, limited broadband access, reduced language 
assistance, and gaps in outreach efforts all threaten the 
success of the census.
    Data from the census will determine the apportionment of 
every seat in the House of Representatives and the allocation 
of, roughly, $1.5 trillion in Federal funding.
    An undercount means fewer Federal dollars for communities 
that need the most, including for essential services like 
Medicaid, children's health insurance, foster care, and 
schools.
    An undercount would also mean less representation for these 
communities at every level of government. If you are not 
counted, you are not represented.
    Some states, including California and my home state of New 
York, are trying to fill the gaps in the Census Bureau's 
efforts to reach hard-to-count communities. I applaud these 
efforts and urge every state to do the same. The Bureau should 
coordinate with these states so that limited resources can be 
used most effectively and efficiently.
    To be clear, I believe the career civil servants at the 
Census Bureau are working hard to achieve the mission of a 
complete and accurate census.
    But they need help and they need it quickly. Our witnesses 
today know these hard-to-count communities better than anyone. 
We should value their expertise and pay heed to their 
recommendations, and I know I will.
    In November 2018, my predecessor, our beloved chairman, 
Elijah Cummings, vowed that ensuring a fair, accurate, and 
nonpartisan census would be a top priority of the Oversight 
Committee on his watch, and he was good to his word, and as 
chairwoman, I intend to honor that commitment.
    So, I want to thank everyone for coming and I look forward 
to their testimony, and I would now like to call on Jimmy Gomez 
for one minute.
    Mr. Gomez. Thank you, Chairwoman Maloney.
    As we all know, today's hearing is not a theoretical 
exercise. The 2020 census is just days away and the threat of 
an undercount is real.
    The last census failed to count more than 750,000 Latinos, 
more than 750,000 African Americans, and more than 50,000 
American Indians and Native Alaskans.
    I am very concerned that we could see an even bigger 
undercount in 2020. Many Americans are fearful and mistrustful 
of their government and overcoming that fear and mistrust 
requires a massive mobilization effort that we have never seen 
before.
    But the Census Bureau appears to be far behind schedule. An 
undercount will have an impact on the opportunities available 
to the people in these communities.
    It will mean more people going without health care, fewer 
resources for childcare, affordable housing, and less money for 
local schools.
    As a committee and a Congress, our message should be 
simple: Everyone must be counted. I am grateful to each of our 
witnesses here today, not just for assisting the committee but 
for your tireless advocacy to ensure that members of your 
communities are counted fairly and accurately as the 
Constitution requires.
    And with that, I yield back.
    Chairwoman Maloney. The Chair now recognizes the ranking 
member.
    Mr. Jordan. I thank the Chair.
    Before getting to my opening statement, Madam Chair, when 
we last met I brought up the scathing report that Inspector 
General Horowitz and the Justice Department brought forward 
last month--a report where even former FBI Director Jim Comey 
on national television had to say that he was wrong in his 
defense of the FBI and how they handled the FISA application 
process in the Trump-Russia investigation.
    You indicated that you would let us know when we were going 
to have Mr. Horowitz in front of this committee. I mean, 
understand what he pointed out 17 different times. The FBI----
    Chairwoman Maloney. I thank the gentleman. I thank the 
gentleman.
    Mr. Jordan. We are still waiting for an answer, Madam 
Chair, on when we are going to have Mr. Horowitz before this 
committee.
    Chairwoman Maloney. Well, I would love to give you an 
answer. And so, the purpose of this hearing is on the census 
and I appreciate the ranking member's persistence on this 
issue.
    Before the Inspector General's report was released to the 
public, all members of the Oversight Committee had the 
opportunity to read the report and attend a briefing with the 
Office of the Inspector General.
    The Senate Judiciary Committee held a hearing on the 
Inspector General's report on December 11. The Senate Committee 
on Homeland Security followed with its own hearing on December 
18. The Inspector General testified in both of these hearings 
and answered numerous questions about the report.
    So, I deeply appreciate the ranking member's request and I 
wrote him a letter on December 6. At this point, I don't think 
another hearing is necessary and I look forward to working with 
him----
    Mr. Meadows. So, Madam Chairman--Madam----
    Chairwoman Maloney.--On areas where we can work together to 
improve the lives of our constituents.
    Mr. Meadows. So, Madam Chairman, why don't we have a census 
hearing over in the Senate then if we are always going to rely 
on the Senate to have these hearings? I mean, if you are 
saying----
    Chairwoman Maloney. The gentleman is not recognized.
    Mr. Meadows. Well----
    Chairwoman Maloney. The gentleman is not recognized.
    Mr. Meadows. Well, then I have a point of order.
    Mr. Jordan. I think----
    Mr. Meadows. Then I have a point of order, and I will be 
glad--because rule----
    Chairwoman Maloney. Recite your point of order.
    Mr. Meadows. Rule 11 Clause 2(j) Section 1 actually talks 
about minority hearings and one of the issues that we have had, 
Madam Chairman, is that we believe that this committee needs to 
be doing their oversight function.
    And I bring up Jack Evans. We have had Jack Evans resign 
from the D.C. Council. It was the previous chairman along with, 
I would say, the gentleman from Virginia, Mr. Connolly, and I 
expressed concern about proper oversight in a minority 
hearing--hold on.
    Chairwoman Maloney. Will the gentleman cite your point of 
order?
    Mr. Meadows. The point of order is, is under that rule we 
have the requirement for a minority hearing, of which was not 
noticed properly and was ambiguous at best and did not get to 
the heart of the matter because it was not conducted. And if 
the chairman is going to argue that a minority hearing didn't 
happen----
    Chairwoman Maloney. May I--may I respond to your point of 
order?
    Mr. Meadows [continuing]. I will--I will quote another 
point of order.
    Chairwoman Maloney. We had a minority day of hearings on 
the D.C.----
    Mr. Meadows. I would--I would----
    Chairwoman Maloney. Reclaiming my time.
    Mr. Meadows. No. No. I would appeal the ruling of the 
Chair. I am going to----
    Chairwoman Maloney. There is no ruling. There is no ruling. 
There is no point of order.
    Mr. Meadows. So, is my point of order out of order or not?
    Chairwoman Maloney. You have not stated a point of order.
    Mr. Meadows. My point of order is that we have violated the 
rule by not having a minority hearing that was properly 
noticed.
    Chairwoman Maloney. We had a minority hearing.
    Mr. Meadows. I appeal the----
    Chairwoman Maloney. You are out of order.
    Mr. Meadows. I appeal the ruling of the Chair.
    Chairwoman Maloney. Reclaiming my time.
    Mr. Meadows. I appeal the ruling of the Chair. I have that 
right. I promise you I have that right.
    Chairwoman Maloney. For a minority hearing--on a minority 
hearing that we already had on D.C. Statehood?
    Mr. Meadows. Has Mr. Evans--has Mr. Evans been here?
    Chairwoman Maloney. Mr. Evans was invited to come along 
with others that were requested by the minority.
    Mr. Meadows. Then I make a motion that we subpoena Jack 
Evans.
    Chairwoman Maloney. They did not come, and it is not up to 
me to get them to come. You invited a guest. It is up to the 
minority to get them there.
    Mr. Meadows. Well, you are the chairman. I would make a 
motion that we subpoena Jack Evans and have him come in. If we 
want to do proper oversight, I make a motion that we subpoena 
Jack Evans.
    Chairwoman Maloney. The gentleman has not stated a proper 
point of order.
    Mr. Meadows. Well, the gentleman has stated a proper point 
of order. Now, whether she wants to rule on it or not, I can 
assure the parliamentarian I will be glad to go back and forth 
with her if she wants to go ahead and put on her mic.
    Chairwoman Maloney. The parliamentarian says it is not a 
proper----
    Mr. Meadows. I promise you that I have stated a proper 
point of order.
    Chairwoman Maloney.--Is not a proper point of order.
    Mr. Meadows. I appeal the ruling of the Chair.
    Mr. Higgins. Madam Chair?
    Chairwoman Maloney. The gentleman has not stated a proper 
point of order.
    Mr. Meadows. All right.
    Chairwoman Maloney. It is the ranking member's time. The 
ranking member is recognized for his opening statement.
    Mr. Jordan. Madam Chair, I yield.
    Mr. Meadows. It is your time, Mr. Ranking Member.
    Mr. Jordan. Well, let me go back to--and we have got lots 
of concerns, Madam Chair. Let us just--let us just be honest, 
and not only with the fact that Mr. Evans has stepped down and 
we have yet to have him in front of this committee, but also, 
as I raised earlier, the issue of Mr. Horowitz's report, which, 
again [stated], 17 different times the FBI misled the FISA 
court.
    Let me just read something. Let me just read something. The 
Chair talked about the Senate having hearings. But I thought 
this committee, which has oversight for every single Inspector 
General in our government--and we are talking now about the 
Justice Department Inspector General--this is what the public 
order from the FISA court judge, Judge Collyer, what she had to 
say after Mr. Horowitz's report last month.
    The frequency with which representations made by FBI 
personnel turned out to be unsupported or contradicted by 
information----
    Chairwoman Maloney. The gentleman--excuse me, Ranking 
Member.
    Mr. Jordan. No. No. No. No. The time is mine. The time is 
mine.
    Chairwoman Maloney. You are recognized for an opening 
statement on the census.
    Mr. Jordan. The time is mine, Madam Chair.
    Mr. Meadows. He--oh, my gosh.
    Mr. Jordan. And all I know is during your opening statement 
the time didn't even run. You told me you were going to give us 
the same opportunity during our opening statement.
    Let me go back before I was interrupted and read Judge 
Collyer's statement in her public order after Mr. Horowitz's 
report.
    The frequency with which representations made by FBI 
personnel turned out to be unsupported or contradicted by 
information in their possession and with which they withheld 
information detrimental to their case calls into question 
whether information contained in other FBI applications is 
reliable.
    Let us put that in plain English. They lied so much to the 
FISA court the judge is saying, how can we trust other 
representations you have made to this court. That is what she 
said.
    After Mr. Horowitz's report, and to date the Chair doesn't 
even want to have a hearing. The chairman's response was, oh, 
the Senate had a couple hearings. That is good enough.
    Even though this committee has jurisdiction over every 
single Inspector General in the government. That is why we want 
Mr. Horowitz here for a hearing.
    Used to happen when Republicans were in charge. We brought 
in the Inspector Generals after a big report. But I guess 
things are different. I guess things are different. Mr. Evans 
should have been here.
    Mr. Horowitz should have been here already. Unfortunately, 
obviously, the chairwoman is not going to do that.
    In my remaining time I do want to address the situation of 
the census. Madam Chairwoman, thank you for convening this 
hearing.
    Oversight of the census is one of this committee's core 
responsibilities. However, I worry that since last January 
Democrats have been more--much more focused on using our 
committee to attack the Trump administration than on addressing 
fundamental good government oversight like preparedness for the 
census.
    The census determines the apportionment of seats in the 
House, it dictates how Federal funds are distributed to states 
and localities, and it provides crucial details about the size, 
vitality, and mobility of our population.
    This data serves as the gold standard for researchers and 
statisticians to better understand trends in American life.
    When we were in the majority, Republicans held several 
hearings about census preparedness dating back to 2015. Mr. 
Meadows chaired many of those.
    In 2018 alone, Republicans convened five hearings or 
briefings about the census. We looked at important topics like 
information technology preparations, cybersecurity 
preparedness, and we sought to understand how the Bureau was 
getting ready for the first census that will allow people to 
submit responses online.
    But rather than conducting similar meaningful oversights, 
the Democrats have spent a year trying to stop one simple 
question: Are you a citizen? One question.
    Since obtaining the majority in January 2019 the Democrats 
have held only one hearing on the 2020 census that did not 
focus on the census citizenship question. Just one.
    After all these months, I still don't understand why 
Democrats do not want to know how many U.S. citizens are living 
in the United States. It is a question that has been on our 
census before.
    It is a question asked numerous nations--asked by numerous 
nations around the world and it is a question the United 
Nations encourages countries to ask. And, frankly, if you go 
talk to any of our constituents and ask them should we ask on 
the census if you are a citizen, the person on the street that 
you would talk to would say, well, of course--aren't we already 
doing that.
    And you would have to say yes, we are. We have been doing 
it for 200 years, until now. Democrats baselessly argue that 
the question is designed to scare immigrant and racial 
communities in an effort to undercount those populations.
    That is not correct. The Census Bureau conducted a test in 
the summer--last summer--to study the operational effects on 
self-response of including a citizenship question and found 
that there was no difference--no difference in self-response 
rates between forms with and forms without a citizenship 
question.
    Let me say that again. There was no difference in self-
response rates between forms with and forms without a 
citizenship question.
    In July 2019, following a Supreme Court decision, the Trump 
administration removed the citizenship question from inclusion 
on the 2020 census. The Democrats want you to believe this was 
because the question was fundamentally inappropriate and the 
court vindicated their position.
    But in fact, the Supreme Court held the Trump 
administration had the authority to ask the question about 
citizenship on the census but took issue with the 
administration's process for doing so under administrative law.
    The Founders included a decennial census in the 
Constitution to ensure our government is responsive and 
accountable to the people, not to aid in assisting in political 
ambitions.
    I hope that today we can stop playing partisan games, get 
back to the fundamental oversight that is needed to accomplish 
the census's stated goal--to count everyone once, only once, 
and in the right place.
    As we examine hard-to-reach populations today, we should 
ensure census does its best to count everyone.
    Thank you, Madam Chair. I look forward to hearing from our 
witnesses and would yield back.
    Chairwoman Maloney. Thank you.
    I would like to introduce our witnesses. We are privileged 
to have a rich diversity of witnesses on our panel today that 
can testify regarding their hard-to-count communities.
    Vanita Gupta is the president and chief executive officer 
of the Leadership Conference on Civil and Human Rights.
    John Yang is the president and executive director of the 
Asian Americans Advancing Justice.
    Arturo Vargas is the chief executive officer of the NALEO 
Educational Fund.
    Kevin Allis is the chief executive officer of the National 
Congress of American Indians.
    And Marc Morial is the president and chief executive 
officer of the National Urban League.
    Darrell Moore is the executive director of the Center for 
South Georgia Regional Impact at Valdosta State University.
    And if you would all please rise and raise your right hand 
I will begin by swearing you in.
    Do you swear or affirm that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    [Witnesses are sworn.]
    Chairwoman Maloney. Let the record show that the witnesses 
answered in the affirmative. Thank you, and please be seated.
    The microphones are sensitive so please speak directly into 
them and, without objection, your written statement will be 
made part of the record.
    And with that, Ms. Gupta, you are now recognized for your 
opening statement. Thank you.

   STATEMENT OF VANITA GUPTA, PRESIDENT AND CHIEF EXECUTIVE 
  OFFICER, THE LEADERSHIP CONFERENCE ON CIVIL AND HUMAN RIGHTS

    Ms. Gupta. Chairwoman Maloney, Ranking Member Jordan, and 
members of the committee, thank you for the opportunity to 
testify today. And thank you, Chairwoman Maloney, for your 
leadership in calling this hearing to reach hard-to-count 
communities in the 2020 census.
    The Leadership Conference on Civil and Human Rights 
believes a fair and accurate census is among the most important 
civil rights issues of our day.
    Not only is the census essential to apportioning political 
power but the data also influence significant Federal funding 
for services like schools, fire departments, and hospitals.
    It is the bedrock of our democracy and has enormous impact 
on the Nation's ability to ensure equal treatment under law.
    The 2020 census is likely to be the largest, most difficult 
enumeration in our Nation's history. The U.S. population is 
increasingly diverse geographically, culturally, and 
linguistically.
    The Census Bureau must meet the growing challenges that 
threaten to undermine the enumeration. And even with carefully 
planning, the Bureau has historically undercounted certain 
communities in the census, notably, people of color, young 
children, people experiencing homelessness, and renters. And 
for some populations, for example, young children under the age 
of five, the undercount has grown progressively worse.
    Now additional populations such as rural residents and 
older Americans may experience increased vulnerability because 
of the first high-tech census.
    Households may not participate in the census for reasons 
including mistrust of government, limited language access, data 
confidentiality concerns, and lingering fear following the 
failed attempt to add a citizenship question to the census.
    Hard-to-county communities are in every state and district, 
from large urban areas to rural and remote communities, 
including American Indian tribal lands and reservations.
    And that is why the Leadership Conference launched Census 
Counts, a nationwide campaign to drive strategies--outreach 
strategies, to hard-to-count communities through a network of 
trusted national and local messengers and to complement and 
strengthen Census Bureau efforts.
    Census Counts' national organizations, some of whom are 
represented here today, include people and networks who live 
and work in communities most at risk of being missed in the 
census.
    Together, we are training and educating community leaders 
about the census, translating materials into languages the 
Bureau will not, as well as monitoring Bureau activities to 
ensure that they are best serving hard-to-count populations.
    Our campaign, States Count Action Network, works with 
coalitions in all 50 states and D.C. to reach hard-to-count 
populations and encourage them to participate in the census.
    We are grateful to congressional leaders for your 
bipartisan efforts in 2019 to ensure sufficient funding for the 
2020 census.
    The Bureau must update its operational plan now with input 
from key stakeholders and Congress, and use the additional 
funding to meet the goals set by Congress.
    The window of opportunity to ensure a successful census in 
all communities is closing fast and we urge the committee and 
the Census Bureau to closely track and address the following 
concerns.
    First, the Bureau has to meet the challenges of the first 
high-tech census by ensuring IT readiness and addressing the 
digital divide, cyber attacks, and disinformation campaigns.
    The Bureau must update Congress on the status of system 
readiness to build confidence at a time when many people are 
skeptical and even fearful of government and data security.
    Further, our coalition has observed intentional efforts to 
suppress census participation in social and traditional media. 
Under pressure from the Leadership Conference, other civil 
rights groups, and Congress, tech companies have started to 
fight disinformation and misinformation that is preying on 
people's fears.
    Both the Bureau and tech companies must be transparent 
about their plans to counter census interference and ensure 
that these policies are strictly enforced.
    Targeting communications and advertising outreach to hard-
to-count communities is also really critical and we have 
concerns right now.
    Stakeholders are concerned about the Bureau's paid media--
plan that it isn't robust enough to do the necessary outreach 
and encourage full participation among hard-to-count population 
groups.
    The Bureau's 2020 Census Partnership Program will play an 
essential role in building trust, raising awareness, and 
increasing participation in the census, and the Bureau has to 
provide more information to help Congress and stakeholders 
determine whether it is on track to meet the program's stated 
goal, including its target number of partnerships.
    And last, the Bureau has to have accessible physical 
presence in hard-to-count communities. Stakeholders urgently 
need more information and a deployment plan on the Bureau's 
proposed Mobile Questionnaire Assistance Center initiative. 
With $90 million provided by Congress, the Bureau needs to hire 
more staff and create a larger footprint, including mobile and 
fixed locations, to be effective.
    When people--when your constituents are not counted in the 
census they remain invisible for the next 10 years and there 
are no do-overs. We have to get it right the first time.
    The Leadership Conference looks forward to working with all 
members of the committee to ensure a cost-effective, secure, 
and above all, fair and accurate census in every one of our 
Nation's communities.
    Thank you.
    Chairwoman Maloney. Thank you.
    Mr. Yang?

STATEMENT OF JOHN YANG, PRESIDENT AND EXECUTIVE DIRECTOR, ASIAN 
                  AMERICANS ADVANCING JUSTICE

    Mr. Yang. Thank you very much, Chairwoman Maloney, Ranking 
Member Jordan, and thank you all for hosting this hearing.
    Asian Americans Advancing Justice, AAJC, is part of a 
national affiliation that has independent affiliates in 
Atlanta, Chicago, Los Angeles, and San Francisco, and includes 
community partners--over 160--in 33 states and the District of 
Columbia.
    We maintain a permanent census program that monitors issues 
related to the census, outreach to our community regarding 
these issues, and educating policymakers about these important 
issues.
    We have also served for the Census Bureau on numerous 
community advisory committees since 2000, including most 
recently two three-year term stints on the National Advisory 
Committee for race, ethnicity, and other populations.
    We are also proud to partner with Ms. Gupta and Mr. Vargas. 
We are one of the co-chairs for the Leadership Conference's 
Census Task Force.
    I appreciate this opportunity to testify and speak 
specifically about the Asian-American Native Hawaiian Pacific 
Islander community with this next decennial and the ability of 
the Census Bureau to reach this community.
    Now, at the outset, it is important to talk about why our 
community is important. It is a growing minority group. It is 
the fastest growing minority group, growing by 46 percent since 
the 2000 census--the 2010--and growing by similar rates since 
2010.
    Now, although there is a model minority myth that Asian 
Americans uniformly are largely, educated, exceed average 
incomes, the reality is that many in our community, especially 
Southeast Asians--Native Hawaiian Pacific Islanders--suffer 
significant gaps with respect to income and education. It is 
only through accurate census data can we understand this 
rapidly and changing demographic and the needs for this 
community.
    Now, when the administration proposed to add the 
citizenship question to the 2020 decennial census without any 
testing, we knew right away that we had a five-alarm fire, and 
although we put out that fire through litigation to 
successfully prevent that question from appearing on the 2020 
decennial census, we know that damage has been done.
    Like any fire, the damage that is done takes time for it to 
be repaired. Getting immigrant families to respond to the 
census, understand the census is complicated under any 
circumstance.
    The aftermath of the citizenship question debacle and the 
continuing anti-immigrant rhetoric that we see, this task has 
become formidable. There is significant confusion and distrust 
about the administration's intent and the Census Bureau has 
been limited in its response to these challenges.
    Second, although the Census Bureau has made some 
improvements to their language support program, there are still 
severe gaps that need to be overcome.
    With respect to the online response option, the only Asian 
languages covered are Chinese, Tagalog, Korean, Vietnamese, and 
Japanese. Significantly, there also is no written response 
option in languages other than English and Spanish.
    And although there are language assistance guides provided 
in additional languages, there is no coverage for Native 
Hawaiian Pacific Islander languages and other important Asian 
languages.
    Third, hiring for the partnership programs and for census 
takers has been slow and inconsistently inclusive of 
underserved communities.
    Among the barriers that have been encountered is the 
emphasis on online applications, backlogs on background checks, 
and insufficient outreach to our communities with respect to 
job opportunities.
    Only recently the Bureau announced the ability to hire 
census takers that would not be limited to U.S. citizens but 
other people that have work authorizations.
    Although this is, clearly, favorable to serve our 
demographic, the fact that it came so late minimizes the 
potential benefits that this brings.
    Likewise, field officers and partnership specialists need 
to be trained adequately to ensure that they provide consistent 
responses to different questions about census policy.
    Thus far, we have seen from the field that too often 
inconsistent responses have been provided. For the 
communications campaign that Ms. Gupta alluded to, that is an 
important role.
    We only recently understood the full media bias in mid-
December and just yesterday the Census Bureau briefed us 
specifically on the Asian-American plans in this respect.
    Now, previously, one of our concerns had been the lack of 
any media campaign targeted to the South Asian community, and 
Chairwoman Maloney, Representative Meng, and others have 
addressed this concern to the Census Bureau, for which we 
appreciate.
    Just yesterday, the Bureau announced that it would be 
providing some outreach to Hindi and in Urdu. So, we see that 
as a favorable development. But we need to understand more 
details about what that media campaign would entail.
    Nevertheless, we also remain very concerned by the limited 
number of languages that are provided in the media campaign and 
the apparent lack of micro targeting of communities other than 
the five Asian languages for which online responses would be 
accepted.
    We believe that that approach is insufficient to address 
these communications issues, especially with communities that, 
while English proficient, would receive messages better than 
are ethnically and culturally tailored.
    In conclusion, there are still numerous challenges to 
ensuring that the Asian-American Pacific Islander community is 
fully counted. We appreciate the efforts that have been made so 
far but there is more work to be done.
    Thank you very much.
    Chairwoman Maloney. Thank you very much.
    Mr. Connolly. Madam Chairman?
    Chairwoman Maloney. Mr. Vargas?
    Mr. Connolly. Madam Chairman?
    Chairwoman Maloney. Mr. Vargas is recognized.
    Mr. Connolly. Madam Chairman, I have a unanimous----
    Mr. Meadows. That is your side.
    Mr. Connolly. I just wanted to enter something in the 
record by unanimous consent.
    Chairwoman Maloney. Sure.
    Mr. Connolly. I am sorry?
    Chairwoman Maloney. The gentleman can enter whatever he 
would like.
    Mr. Connolly. I thank the Chair.
    I just have some correspondence between myself and Mr. 
Dillingham on the practice of hiring people, especially 
following Mr. Yang's testimony, in terms of non-English 
speakers. I would ask that it be entered into the record at 
this time.
    Chairwoman Maloney. Without objection.
    Mr. Connolly. I thank the Chair.
    Chairwoman Maloney. OK. Thank you.
    All right. Mr. Vargas is recognized.

  STATEMENT OF ARTURO VARGAS, CHIEF EXECUTIVE OFFICER, NALEO 
                        EDUCATIONAL FUND

    Mr. Vargas. Thank you, Chairwoman Maloney, Ranking Member 
Jordan, and members of the committee. Thank you for the 
opportunity to appear before you today with regard to census 
2020 preparations.
    NALEO Educational Fund also has been an advisor to the 
Census Bureau since 2000 and we are preparing to undertake a 
massive independent campaign to promote a full count in the 
2020 census.
    I would like to stress that we respect the work of the 
Census Bureau and as a national partner are coordinating for a 
successful census.
    I would also like to share my growing antipathy for the 
term hard-to-count populations to describe some of the 
populations we represent, when in fact what makes people hard 
to count are the enumeration strategies that the Census Bureau 
uses.
    My remarks this morning are a summary of more extensive 
remarks to the committee. Of the issues addressed in my written 
testimony, there are three I would like to underscore today.
    One, there has been damage done by the citizenship question 
debacle and a remedy is needed. The Bureau's 2019 research 
shows there is heightened sensitivity among several groups to a 
census form with a citizenship question. Our research from the 
Rhode Island end-to-end test and from the past three months 
also show that the citizenship question debacle has created and 
continues to foster fear and doubt.
    Many Latinos are resistant to participate in the census 
because they believe there will be a citizenship question on 
the form, despite its absence, and many fear how the data would 
be used.
    This is exacerbated by a hostile environment toward 
immigrants propagated by this administration. Our research also 
shows that the Census Bureau has a trusted brand and we believe 
it should use its favorable perception it holds to deliver 
credible messages about the content on the 2020 census form.
    However, we have observed the Bureau has been instructed 
not to discuss the citizenship question. The Census Bureau 
outreach staff must be directed to advise the public that there 
will be no citizenship question on the 2020 census.
    Having been briefed on the Bureau's communications 
campaign, we are impressed that the Bureau and the contractors 
understand the challenge.
    Yet, we are deeply concerned that the LatinX outreach 
approach is almost exclusively in Spanish and there is no 
specific campaign to reach Latinos who consume information in 
English.
    NALEO Educational Fund and others will do all we can to 
fill these gaps. But the task of repairing the damage and 
reaching all Latinos must not be borne by us alone.
    Two, the Census Bureau should prepare for a significant 
demand for a paper form, ensure the online mobile response 
option is effective, and implement an effective assistance 
program.
    Our research shows that Latinos prefer to respond to the 
census using paper or online. Our end-to-end assessment also 
shows that many Latinos participated in the test through in-
person enumeration.
    Thus, the Census Bureau must be adequately prepared to 
provide a paper form to all who prefer this response mode and 
ensure that there is a sufficiently prepared, skilled, and 
culturally competent enumerator work force.
    Many of the Latinos we surveyed expressed a preference to 
participate online and data show that Latinos are most likely 
to access the internet via a mobile device.
    Thus, the Bureau must ensure that the online response mode 
is user friendly and with the load capacity to meet the demand.
    Finally, we continue to believe that a Census Bureau 
initiative to provide live in-person assistance is essential. 
The Bureau needs to act quickly to stand up a well thought out 
mobile questionnaire assistance centers program, which Congress 
has funded, in addition to standing up traditional 
questionnaire assistance centers.
    Three, there persists a design flaw in the collection of 
Hispanic origin and race data. One aspect of the 2020 census 
that has not received adequate congressional oversight is the 
failure to modernize the collection of data on Hispanic origin 
and race.
    Our research reveals that there is a significant confusion 
among Latinos about how to answer the 2020 census Hispanic 
origin and race questions.
    The Census Bureau recognizes that the two-question approach 
to collecting data on race and ethnicity that it has used since 
1980 is flawed.
    Researchers have warned that by using a two-question design 
the 2020 census will show that, quote, ``some other race,'' 
unquote, will be the Nation's second largest racial group, a 
category OMB does not even recognize.
    Nearly all of the respondents to ``some other race'' will 
also have indicated that they are Hispanic. The Census Bureau 
carried out a comprehensive research and consultation process 
to develop a better way for collecting data on race and 
ethnicity.
    The Bureau recommended a combined question approach for 
2020. In early 2018, we learned that the Bureau's 
recommendation had been gathering dust due to inaction by OMB's 
Office of Information and Regulatory Affairs. Congress must 
investigate OIRA's inaction and the future of collection of 
race and ethnicity data.
    Millions of Americans will not understand how to answer the 
2020 questions on Hispanic origin and race. Many will leave the 
question or both questions blank, compromising the quality of 
data and increasing costs to provide a complete census.
    The Census Bureau's communications program must include 
information on how to complete these questions to overcome the 
design flaws.
    Again, thank you for the opportunity to share our comments 
with the committee. I look forward to your questions.
    Chairwoman Maloney. Thank you.
    I now recognize Kevin Allis for five minutes.

STATEMENT OF KEVIN J. ALLIS, CHIEF EXECUTIVE OFFICER, NATIONAL 
                  CONGRESS OF AMERICAN INDIANS

    Mr. Allis. Good morning, Chairwoman Maloney, Ranking Member 
Jordan, and members of the committee.
    I am Kevin Allis and I am a tribal citizen of the Forest 
County Potawatami community in Wisconsin. I am also the chief 
executive officer of the National Congress of American Indians 
and on behalf of NCAI I thank you for holding the hearing and 
reaching hard-to-count communities in the upcoming 2020 census.
    I am the son of a woman who grew up on a hard-to-reach 
Indian reservation in the 1940's, 1950's, and early 1960's, the 
grandson of a chairman of a tribe who raised these concerns in 
the late 1950's and early 1960's.
    NCAI was founded in 1944 and my grandfather interacted with 
this organization in the 1950's and 1960's about this topic and 
many, and NCAI is the oldest and largest national organization 
serving the broad interests of tribal nations and communities.
    Tribal leaders created NCAI in response to termination and 
assimilation policies that threatened the existence of tribal 
nations.
    Since then, NCAI has fought to preserve the treaty and 
sovereign rights of tribal nations, advance the government-to-
government relationship, and remove historical and structural 
impediments to self-determination.
    There has been much success, yet there is much more work to 
do for Indian Country to fully realize the promises this Nation 
made, this body of Congress made, and this country owes to 
Indian Country in its treaty and trust responsibilities.
    Like all other governments, tribal nations strive to build 
strong economies and ensure the health and well being of their 
citizens. A full and accurate count in the census is absolutely 
vital to these efforts.
    Twenty-twenty census data will do three important things: 
whether American Indians and Alaska Natives have an equal voice 
and are accurately represented in the American political 
process, whether there is fair distribution of the billions of 
dollars of Federal funding to tribal nations and communities 
across the United States, and whether the tribal nations have 
accurate data for programmatic and resource-related 
decisionmaking that their tribal leaders make that are central 
to their status as sovereigns.
    Given the importance of census data, the prospect of yet 
another undercount of American Indians and Alaska Natives is 
deeply concerning.
    American Indians and Alaska Native people, especially on 
reservations and in villages in Alaska, have been historically 
underrepresented in this census.
    In 2010, the U.S. Census Bureau estimates that American 
Indians and Alaska Natives living on reservations or in these 
villages were undercounted by 4.9 percent. That is more than 
double the undercount of the next closed population group.
    It is a fact that American Indian and Alaska Native 
populations are among the hardest to count. Not only does a 
significant portion of our population live in these hard to 
count tracks; we also exhibit many of the factors that 
contribute to communities being hard to count.
    Additionally, a Census Bureau survey in our own message 
testing found issues affecting American Indian and Alaska 
Native census participation to be including mistrust of 
government, concerns related to privacy, and perceptions that 
participation would not lead to anything.
    The Census Bureau, as a Federal agency, has treaty and 
trust obligations to overcome these challenges and provide a 
complete and accurate count for Indian Country.
    As it stands today, tribal nations are concerned that we 
will again see an undercount in 2020. The decision of the 
Census Bureau to focus efforts on online enumeration is a 
significant risk as many communities and individual households 
in Indian Country do not have access to the internet.
    This strategy, along with the need for trusted voices on 
the ground in tribal communities, emphasize how critical it is 
for the Census Bureau to allocate resources to hire and retain 
American Indian and Alaska Native enumerators and partnership 
specialists.
    Yet, with just a few weeks before an enumeration begins in 
Alaska, it is still unclear whether this goal has been reached.
    Moreover, we are also concerned about the delays in the 
Census Bureau's American Indian and Alaska Native advertising 
campaign recommendations.
    Indian Country has been working tirelessly to ensure an 
accurate and complete count. However, efforts are not to 
replace those or absolve the U.S. Census Bureau of its 
responsibility to use its staff and resources to ensure a full 
enumeration of American Indian and Alaska Native populations.
    As such, NCAI recommends that Census Bureau makes steps to 
implement the following actions.
    Immediately address delays in hiring American Indian and 
Alaska Native enumerators and partnership specialists to 
enhance the utilization of trusted sources for Indian County 
population to rely upon.
    Reallocate resources to address needs for more 
communication actions to ensure a complete enumeration of 
American Indian and Alaska Native populations.
    Increase communications to tribal communities on what 
resources are available to ensure their participation is 
complete.
    Increase media buys in more diverse areas for tribal 
communities. Ensure that data collected about American Indian 
and Alaska Native households and individuals is accurate and 
accessible after the implementation of a planned new disclosure 
avoidance mythologies.
    So, in conclusion, in closing, I urge this committee to 
continue conducting oversight during the Census Bureau 
implementation of the 2020 census.
    This will help ensure a complete and accurate count for the 
indigenous people of this country that have been here forever.
    Thank you.
    Chairwoman Maloney. Thank you. Thank you.
    I now recognize Mr. Moore for five minutes. Morial.
    Mr. Morial. Morial or Moore? Moore?
    Chairwoman Maloney. Morial.
    Mr. Morial. Thank you.

    STATEMENT OF MARC MORIAL, PRESIDENT AND CHIEF EXECUTIVE 
                 OFFICER, NATIONAL URBAN LEAGUE

    Mr. Morial. Good morning, ladies and gentlemen, Chairwoman 
Maloney, and Ranking Member Jordan. I am Marc Morial. I serve 
as president and CEO of the National Urban League.
    I previously served as mayor of New Orleans, a Louisiana 
state senator, and chairman of the 2010 Census Advisory 
Committee. I am proud to be here today and thank you for the 
opportunity.
    The National Urban League was founded in 1910 as a 
nonpartisan nonprofit civil rights organization dedicated to 
the economic empowerment of African Americans.
    We work through a network of 90 affiliates in 36 states and 
the District of Columbia. We serve 2 million people a year. We 
assist them in finding jobs and becoming homeowners and 
starting small businesses in many very important areas.
    I will speak today about the undercount of African 
Americans and the challenges in the upcoming census and how the 
National Urban League is mobilizing to ensure a complete and 
accurate count.
    I want to thank the committee and I want to thank the 
leadership for ensuring that the census 2020 has been better 
funded. The census has been historically underfunded for most 
of the past decade.
    What has been the significance of this? It has caused 
operational and IT delays, recruitment and hiring challenges, 
the cancellation of critical tests to improve the 2020 census 
count.
    Your leadership on this issue is in the best interests of 
all of the American people and I encourage you to continue to 
exercise your oversight responsibilities.
    We have witnessed the browning of America in real time, 
from California to Connecticut, from Florida to Alaska. We have 
witnessed the growing needs of our communities as a gap between 
those who have and those who have not has increased.
    We see the true faces of the undercount every day, their 
children. They are black. They are brown. They are the formerly 
incarcerated. They are immigrants who are black, who are brown, 
and of other races.
    They are the homeless and the gentrified. They are the 
digital illiterate and the digital homeless, those with no 
internet address or access to speak of.
    The census is a big deal. The Founding Fathers were 
brilliant in ordaining that all the people in the United States 
be counted every 10 years.
    Fifty years ago, in 1970, my predecessor, Whitney Young, 
Jr., who was executive director of the National Urban League, 
testified before the then Subcommittee on Census and 
Statistics, a part of the Committee on Post Office and Civil 
Service.
    At that time, he spoke passionately about the need for a 
full and complete count of black and underserved communities.
    His testimony about the 1970 census is oddly familiar to 
the discussion today. He talked about inadequate assistance for 
completing the forms, poor community outreach, the lack of 
Spanish language forms, inadequate outreach in education to 
reach minority populations.
    He noted that the 1960 census--60 years ago--missed one in 
10 black people, including one in six black men. Fast forward 
to 2020.
    And while there is much to applaud about the 2020 census, 
the technological advancement and operational modernizations, 
we and my co-panelists see too many parallels to the 1970 
census and even more uncertainties.
    In 2010, a million children, disproportionately black and 
brown, didn't show up in the census. An alarming six out of 10 
black children between the ages of zero and four were 
completely missed.
    The undercount of black and brown children has grown 
exponentially and the economic and political consequences of 
this are grave. African American men are still missed in 
staggering numbers.
    In the 2010 census, fully 3.9 million African Americans 
were completely missed. Approximately 700,000 formerly 
incarcerated men and women reenter our communities each year. 
They must be counted. We must count the digital divide in rural 
and poor, rural and urban poor communities and those with low 
digital fluency who require a paper questionnaire and an 
enumerator's knock on the door.
    We have to anticipate disinformation social media campaigns 
designed to mislead communities and communities of color about 
the census and sow seeds of fear about census participation.
    Community and outreach in education has been hampered by 
the failed citizenship question which heightened distrust and 
fear of the census in immigrant communities.
    Now, we have worked with the Census Bureau to help achieve 
an accurate 2020 count and we do commend the rank and file and 
those in regional offices and partnership teams for the work 
that they have done.
    But let me talk about the gaps. Significant hiring delays 
and backlogs are going to impact the door-to-door enumeration. 
Let me make this point.
    The Census Bureau's own research shows that notwithstanding 
the internet access and the phone access, 40 to 60 percent of 
Americans are going to wait until an enumerator knocks on the 
door.
    If in fact the Census Bureau does not hire a significant 
number of enumerators on a timely basis, the enumerator portion 
of this census will not succeed and the impact will be an 
undercount in black communities, in brown communities, in Asian 
communities, and in rural communities. Those hiring delays are 
going to affect indigenous communities.
    I want to say a few other things about the paid advertising 
program and I want to make this point. We have had an 
opportunity to look at that advertising program.
    Our concern is that the timing of the advertising program 
is misaligned with the enumerator process. So, right now----
    Chairwoman Maloney. Wrap up. Your five minutes is over. If 
you could wrap up.
    Mr. Morial. Yes. I am seeing 1:37 on the clock.
    Mr. Meadows. Over.
    [Laughter.]
    Mr. Morial. As you all say, I beg your indulgence.
    [Laughter.]
    Mr. Morial. My final point is that I encourage and--in the 
question and answer period--would like to explain and 
illuminate how in fact the advertising program is misaligned 
with the enumerator portion. It is important that advertising 
take place while the door-knocking program is ongoing.
    Thank you very much.
    Chairwoman Maloney. Thank you. Thank you.
    Mr. Moore is recognized.

  STATEMENT OF DARRELL MOORE, EXECUTIVE DIRECTOR, CENTER FOR 
    SOUTH GEORGIA REGIONAL IMPACT, ALDOSTA STATE UNIVERSITY

    Mr. Moore. Sorry.
    Chairwoman Maloney, thank you, and the members of the 
committee, for the opportunity to testify today on behalf of 
rural Americans and, specifically, rural Georgians.
    Georgia, like many others, is facing statewide challenges 
in rural communities--population declines, graying populations, 
slow job growth, and distressed cities.
    Valdosta State University is one of four Georgia regional 
universities and we have a mission to serve a 41-county service 
area, primarily in south Georgia.
    In 2017, leadership at VSU started talking about how they 
could have an impact on the reoccurring challenges that all of 
those communities face, and that could be business, industry, 
health care, K through 12 education, city/county government, 
and they came up where the result was they created the Center 
for South Georgia Regional Impact, and I started working with 
that organization in 2018.
    The mission of the Center is to try to work with all 41 
counties to identify opportunities and challenges that they 
might have and that will all go back to Valdosta State and try 
to identify resources to help them out.
    That could be interns, graduate assistants, class projects, 
research, professors working on projects. It really just 
depends on what the need is and it covers all six of our 
colleges.
    We are focused on our 41-county service area and it is a 
very diverse area. Many of you would probably consider everyone 
rural but the largest county in our region is Lowndes at 
115,000 and we have counties as small as 3,500.
    So, what works in one county is not going to work in the 
other, even though they do have similar issues and challenges.
    Our goal is that the communities know what they need best. 
So, we are trying to find out what they need and then go back 
and try to find resources to help them out.
    One thing that really helped me out, I guess, in the 
transition is I have had a 25-year background in economic 
development, and I had a successful career in Waycross, 
Georgia, and spent the last 21 years in Moultrie in Colquitt 
County.
    While I was in Moultrie, we had about $325 million in 
investment and created 3,500 new jobs, and when I left last 
year we had $96 million in projects that were under 
construction and a 3.1 percent unemployment rate, which is 
pretty strong for a south Georgia rural community.
    But one thing that really kind of stuck out as we were 
looking at what we were trying to do with the Center, and what 
we were trying to do with a lot of my friends in south Georgia 
was the Georgia Chamber of Commerce had a presentation called 
``Georgia 2030'' that had been making the rounds with its 
presentation for probably three or four years.
    You don't have the graphics but if you will look them back 
up, they have got population projections and job projections 
through 2030, and those numbers are pretty dire for south 
Georgia and for rural Georgia.
    As you would expect, you are projecting strong population 
and job growth in Atlanta and many of our hub cities in 
Savannah, Augusta, Columbus, and Macon. You are projecting 
minimal growth in some other counties.
    But many of our counties in rural Georgia are projecting 
population losses and job losses, and from an economic 
development standpoint, that is a death knell.
    So, looking back at the mission, the census posed a 
tremendous opportunity for us to get involved. It was a 
tremendous challenge for our 41 counties.
    I mentioned my career in Colquitt County and one thing that 
really tied in with what we are doing with the census right now 
was when I was in Colquitt we had a pilot program with the 
University of Georgia called Archways and it was a similar 
premise.
    We had a UGA employee that served in Moultrie. We would 
identify big projects. They would go back to Athens and bring 
resources back to us. One of our projects was the 2010 census.
    So, we really, in 2009, had a Complete Count Committee 
before we knew there was one. We had a great team in place. We 
had 30 to 40 people. We had representatives or trusted voices 
representing every different demographic of the community.
    As a result, we had an 8.19 percent in the 2010 census 
which was, again, pretty strong for a rural south Georgia 
community.
    I parlayed that information and used it in every request 
for a proposal that we sent out for a new industry, retail, 
commercial, and continued creating more jobs in our community 
because companies want to invest where they are going to grow.
    What we have done from VSU support is we have worked with 
local and regional communities. We have met with all 41 
counties and tried to help them organize their Complete Count 
Committees.
    Again, everyone is different. What works in one county is 
not going to work in the other. The demographics are going to 
be different. The resources are going to be different.
    We have assisted with strategies to achieve an accurate 
count. We have worked with the Governor's Complete Count 
Committee, their marketing committee. They have hired a 
marketing firm called Network Planet, UGA, and, of course, the 
U.S. census reps that are serving our region.
    We have done several focus groups with hard-to-count 
populations, trying to refine our marketing message and we are 
also providing free marketing support to our 41-county area.
    We have got order forms that we sent out. We have got 
billboards already up in all 41 counties. We have got coloring 
pages that we are making available through K through 5 systems 
throughout south Georgia and, technically, throughout Georgia.
    We have got table tents that promote the census that are 
going to be on every restaurant table from Cordele south, all 
41 counties.
    We have got posters that target how the census impacts 
business and industry, how it impacts your family, how it 
impacts children, how it impacts migrant farm workers in 
agriculture and how it impacts you from a community leader 
standpoint.
    All those media are available in English and Spanish and we 
also have the ability to provide them in other languages if 
necessary.
    The order forms came back in in November and we currently 
have order forms for 45,306 table tents, 65,757 posters that 
will be delivered at no cost to all of our counties next week. 
We are also doing banners, promotional tee-shirts, and other 
media to help support them.
    I know my time is up. My main goal or our main goal was to 
make sure every citizen knows how important it is for them, 
their family, and their community to participate in the census.
    Chairwoman Maloney. Thank you so much, and thank you for 
all of your efforts. I commend all of our panelists.
    I would like to announce today that on February 12 the 
director of the Census Bureau, Dr. Steven Dillingham, will be 
appearing before this committee to answer questions about how 
the Bureau is responding to the many challenges that our 
panelists outlined today, and with so much at stake a vigorous 
oversight of the 2020 census is absolutely essentially.
    I now recognize myself for five minutes. This year's census 
will be the largest and most complex in our Nation's history. 
So, the Bureau has a tough job to ensure that every community 
gets fully and accurately counted.
    Sadly, the current administration admitted or practically 
admitted that they don't even want to count everyone when they 
tried to illegally add a citizenship question to the census.
    As a result, many cities and states have stepped up to 
ensure everyone is counted. They have established what is 
called, and Mr. Moore talked about it and Mr. Morial, Complete 
Count Committees to identify risks, recommend solutions, and 
direct state and local funding to areas of hard-to-count at-
risk areas.
    Mr. Morial, you served in New Orleans as the--on the 
Complete Count Committee I believe in 1990 you said--and led 
that committee as mayor in 2000. Would you agree that 
establishing these committees is the right move and would you 
recommend this practice to other states and localities?
    Mr. Morial. It is important that states and localities, and 
in the case of Mr. Moore, regional economic development 
organizations understand that the success of the census 
requires a partnership and the involvement of local elected 
officials.
    What we don't have visibility on at this point is how many 
cities, how many states, how many counties have in fact created 
Complete Count Committees and have operationalized them.
    One problem with this year's census is that census reduced 
the number of local partnership offices by 50 percent and these 
local partnership offices were the connective tissue between 
the Complete Count Committees and the Census.
    So, yes, it is an important strategy and I would encourage 
it and I would say that in 2000 the city of New Orleans spent 
money and had its own effort underway with people and 
advertising and resources.
    I know in this instance there are a number of communities 
and cities who are doing the same thing for 2020--and states.
    Chairwoman Maloney. Thank you.
    My home state of New York is doing that. They created their 
own Complete Count Commission. You pointed out an important 
point, that they have reduced some support in this area.
    Maybe we should get the Census Bureau to do a review of how 
many Complete Count Committees are out there and that could 
have a good overview.
    Mr. Morial. Oh, it would be very helpful.
    Chairwoman Maloney. And this--the New York Count Committee 
came up with eight risks and challenges which were similar to 
what you said today--language barriers, the digital divide, 
hiring issues, and distrust among communities of color. Very 
similar to what you were saying.
    Then they came up with 18 specific recommendations and also 
put in, roughly, $60 million in city, state, and philanthropic 
funding to help make sure that the census was stronger, and we 
hope that other communities can also take the initiative as you 
have in New Orleans.
    Ms. Gupta, do you believe the Census Bureau should be 
engaging with these state and local communities to make the 
Bureau's outreach more efficient and effective? It seems that a 
better coordination would help. Can you elaborate in this area?
    Ms. Gupta. Yes. These Complete Count Committees are 
incredibly important. They are actually--the model was 
developed by the Bureau at is inception to coordinate state and 
local efforts around the country to get out the count, and we 
know that actually most states have, indeed, created them. 
There are five states that have not. They are Louisiana--sorry, 
four--Nebraska, South Dakota, and Texas. Florida just this week 
created one.
    But, you know, one of the challenges is states can't just 
nominally create these committees. They also have to put 
significant funding toward them, particularly because this is 
going to be one of the most difficult enumerations.
    So, Florida created a Complete Count Committee this week 
but then did not allocate any dollars to it. So, there is 
mapping.
    You know, over two dozen states have allocated and 
contributed significant state-based funding to help supplement 
the Federal funding and the work of the Bureau.
    But that partnership needs to be really tight, and too many 
states still have not added additional resources to really get 
the partnership, trusted messengers, communications, 
supplemental work out into and as a part of that. So, the 
Bureau needs to work much more closely with these committees 
around the country.
    Chairwoman Maloney. Well, I don't have a chance to speak to 
everyone, but if you could place in writing. I will let Mr. 
Moore have the last word on how beneficial these Complete Count 
Committees are. Did you work with them in Georgia?
    Put on the mic, please.
    Mr. Moore. Not used to that.
    They have been tremendous. We have actually had a 
Governor's Complete Count Committee since 2017 and, honestly, 
we have had much more emphasis on the census for 2020 than we 
did in 2010.
    Chairwoman Maloney. That is right.
    Mr. Moore. In our district in 2010 I don't think we had 
planned for a lot of support but we do this year.
    Chairwoman Maloney. That is good. Thank you.
    Mr. Moore. There are partners all over. We have tracked I 
think almost every county----
    Chairwoman Maloney. Well, my time has expired but--and I 
invite all of the panelists to put in writing their experiences 
with Complete Count Committees and other ways they think it 
needs to be expanded. It is as much an important challenge 
before us, an accurate fair census. Our Constitution requires 
it. Our government relies on it and our democracy depends on 
it.
    With that, I recognize the distinguished ranking member for 
five----
    Mr. Gosar of Arizona?
    OK. Mr. Gosar?
    Mr. Gosar. Thank you, Madam Chairwoman.
    Mr. Moore, I mean, I am from Arizona. You are from Georgia. 
It sounds like you got some pretty good expertise here.
    You know, according to the City University of New York's 
mapping service, 21 percent of the population in my district 
did not send in their survey, and this same report estimates 
that 25 percent of the population in my district actually lives 
in these hard-to-count districts.
    Have we learned anything from previous census to combat the 
waste and the lack of a response?
    Mr. Moore. Sure, and that is one thing that we are trying 
to incorporate on a county-by-county level or community level 
in all of our communities.
    We have historical data. We know what the response rate was 
by census track in 2010 so we can tell you where those hard-to-
count areas were then, and mostly like if they were hard to 
count in 1910 they will be in 1920.
    We also have maps that show where you have low or limited 
internet connectivity. So, we are working with our local 
Complete Count Committees to come up with a plan to target all 
of those areas and a focused area, a shotgun or a rifle area 
instead of a shotgun trying to hit everybody else.
    We have got several different organizations. Our Georgia 
libraries are putting up stations where people can come back 
in, get information on the census, fill out those census 
[forms] while they are there.
    I had a call with the Georgia Farm Bureau about two weeks 
ago. They are going to do the same thing. We have got family 
connections, housing authorities, soup kitchens that are all 
doing similar items.
    So, our main goal, again, is awareness and education, 
trying to make sure people know why it is important and making 
it easy for them to participate.
    Mr. Gosar. Now, you brought up internet access and, 
roughly, 17 percent of my--almost 18 percent of my district has 
no access to--real access to internet.
    So, has providing that on the internet service actually 
expanded the reach or has it made it more convenient for those 
people to actually do it that are fundamentally falling 
through?
    Mr. Moore. I think it is probably both. You have a younger 
demographic right now, which is hard to count--your Millennials 
that do everything on the phone, do everything on the computer.
    We do have maps, and I actually received one from the U.S. 
Census for all of our counties about two weeks ago. So, we know 
which areas don't have internet access.
    The first mailing for the census is going to start going 
out March 12. Most people that have internet access are going 
to get an internet first card encouraging them to go on and 
participate.
    Those areas that they know do not have internet access will 
get a written form the first time. So, everybody in the country 
is going to have an opportunity fill that out by the internet 
with a written form at least once, possibly twice, and or do it 
by the toll-free number.
    Again, you just got to encourage them and promote them, let 
them know how important it is for them to participate.
    Mr. Gosar. So, now, the census has four hard-to-count 
categories--hard to locate, contact, persuade, and interview--
and these barriers are pertinent to my district.
    When you look outside the cities of Prescott, Kingman, 
Yuma, and what not, a zero to 60 percent mail return rate was 
issued.
    How is that--I mean, I noticed in your comments that it is 
not a one-size-fits-all. You expanded. Can you elaborate a 
little bit more and be----
    Mr. Moore. Yes, it is definitely not, and we have got 
communities--we are serving about 50 counties right now. Some 
of them the city and the county have taken the lead. Some of 
them Family Connections, which is a nonprofit family services 
type organization, is taking the lead. Some of it is in the 
Chamber and the development authority.
    But, really, I think Mr. Morial may have mentioned the 
trusted voices or possibly Mr. Vargas. You have got to have 
trusted voices for everybody in your community and we had that 
in Colquitt County in 2010.
    Somebody that listens to me may not listen to you, and vice 
versa. So, if you have someone that has influence on 50 or 100 
people, you need to get them engaged in the Complete Count 
Committee. Let them know why it is important and get them to go 
back out and have an impact on the people that they have an 
influence on.
    Mr. Gosar. Now, I kind of want to step outside of my 
district and address the fast-growing state of Arizona. Year 
after year we have seen growth--population increases of 2.2 
percent and above.
    So, counting as many people as possible is critical for our 
future. That includes diverse populations, different ethnics, 
tribal entities.
    Do the census efforts effectively address these communities 
that are identified as hard to reach?
    Mr. Moore. Yes, sir, and that is what--they are trying to 
develop plans for each community. I know U.S. Census and even 
state census has hard-to-count populations and all those don't 
apply to every community.
    Again, it is critical for a community to have a robust 
Complete Count Committee that is very diverse. You have got 
faith based. You have got business. You have got local media.
    You have got people that feel comfortable writing letters 
or speaking that may have influence on the general community. 
So, it is important that you come up with a real plan to get 
everybody to participate.
    Mr. Gosar. I thank the gentleman and yield back.
    Chairwoman Maloney. The gentlewoman, Ms. Norton--from the 
District of Columbia, Congresswoman Norton is recognized for 
five minutes.
    Ms. Norton. First, I want to say I appreciate the testimony 
of all of you. But I must say, Mr. Moore, I appreciate your 
testimony because it emphasizes the extent to which the census 
issue has no ideological face.
    Indeed, it is against the interests of every member sitting 
up here to have their own--their own residents not counted 
because, if for no other reason, the money will not be--money 
will not go to them.
    Understand the money will be appropriated by the Congress. 
It only means that your district won't get it because you have 
supported an undercount.
    I was amazed to see the ranking member's remarks. Even 
after a Supreme Court--a conservative Supreme Court has rescued 
the country from this issue, I would just like to indicate what 
they said.
    The Supreme Court said that the rationale given by my 
colleagues had been contrived and incongruent with what the 
record reviews and that conservative Supreme Court is why we 
are going to have a chance to have an accurate census.
    Now, it is not enough to say, look everybody, the question 
is not on the census. I want to urge every Member of Congress 
to undertake actions on the internet, in your own district, to 
try to reverse the message that was out there for two years 
that alarmed people, remembering that it is always difficult to 
get an accurate census and that my friends on the other side 
have made it even more difficult.
    So, let me ask you, Mr. Vargas, because I understand that 
your organization has been studying the issue since the Supreme 
Court ruling and I am trying to get data or information on the 
impact, what anybody there--but I understand you have given 
some thought to this--on the impact of the citizen question on 
the willingness, as I speak, of citizens to participate in the 
census.
    Mr. Vargas. Thank you, Congresswoman, for that question.
    In October, November, and December, NALEO Educational Fund 
commissioned research to survey 1,200 Latino adults 
oversampling Latino immigrants and we held 12 focus groups 
throughout the country in Oregon, Florida, North Carolina, 
Wisconsin, Texas, and Arizona to try to assess what the current 
perceptions are by Latino immigrants toward the census.
    We found some important things. One is that the Census 
Bureau has a positive brand that it needs to use and to fully 
educate the public about what is and is not going to be asked.
    We also learned that there are very significant differences 
in willingness to participate by Latino citizens and Latino 
noncitizens. Latino citizens express much more likelihood to 
say that they will fill out their census forms. Noncitizens 
less so.
    Ms. Norton. Well, do you think the undocumented and every 
jurisdiction sitting on this panel has undocumented people--are 
undocumented people going to participate in this census?
    Mr. Vargas. Congresswoman, this isn't an issue of just 
undocumented immigrants. These are families where they have 
mixed status households--U.S. citizens, legal permanent 
residents, DACA applicants, people of varying immigration 
status--and there is a fear of why am I being asked now am I a 
citizen, yes or no, when immigrants are following policy 
developments day to day and know that there is a campaign 
against immigrants in the country today.
    So, this just has created an environment that does not help 
the Census Bureau in being able to convince everybody that it 
is in fact safe and confidential.
    That is why we need trusted messengers to speak up and the 
trusted messengers we have identified are educators, health 
care providers, minority-led organizations like the ones here 
on the panel today, and local elected officials.
    Those are the individuals we need to empower to speak out 
and to convince their constituents that participating in the 
census is safe and confidential and any perceived risk actually 
is outweighed by the damage done by not participating in the 
census.
    Ms. Norton. This is very important. This responsibility is 
on us all and not just census, why don't you do better.
    Let me finally ask a question about the administration 
which refuses to give up on administrative records. I hope 
people haven't even heard about this.
    But do any of you have any information on the executive 
order or the effect of the executive order to start collecting 
citizenship data from Federal and state administrative records?
    Do you think this will have any impact? I am not trying to 
give it--I am not trying to give it air time. I just want to 
know--I just want to know if we have seen any repercussions.
    Ms. Gupta. If I may, Congresswoman. You know, I think it is 
fundamentally important, building off of what my colleague, 
Arturo Vargas, just said for people to understand that under 
Federal law the Bureau is not allowed to release individual 
data or personal responses that they receive to any other 
government agency.
    But we know that the executive order has created grave 
concerns that the president is attempting to use that to 
exclude noncitizens from the population count that states use 
to redraw district lines.
    That would be unconstitutionally blocking communities 
across the country from fair and equal political representation 
and Asian-Americans Advancing Justice and MALDEF have actually 
filed a lawsuit to challenge the executive order.
    Ms. Norton. Thank you. Thank you.
    Chairwoman Maloney. The gentlewoman's time has expired.
    The distinguished ranking member, Jim Jordan of Ohio, is 
recognized for questioning.
    Mr. Jordan. Thank you, Madam Chair. Thank you, Madam Chair.
    So, now we can't even debate it. Think of what the--think 
of what we just heard--what we have heard from testimony from 
Mr. Yang and Mr. Vargas.
    For a year the Democrats told us oh, the citizenship 
question on the census is bad. It is a bad idea. Even though we 
have been doing it since 1820 they tell us it is a bad idea. 
Now today--even though it is not.
    Even though when the Census Bureau did a study last summer 
they saw no difference in self-response rates between forms 
with the citizenship question and those without the citizenship 
question.
    But now today it is even worse. They said oh, just the fact 
we had a debate is harmful. Now, think how scary that is.
    Mr. Yang and Mr. Vargas both said that and the gentlelady 
from the District of Columbia just said the same thing. We are 
not even allowed to talk about it now.
    Now, that is really scary--the debate itself about a 
question that has been asked since 1820. Let us just get the 
facts straight.
    Between 1820 and 1950 it was asked on the decennial census. 
Between 1970 and 2000 it was asked on the long form census. 
Between 2000 and today, the Census Bureau has placed it on the 
American Community Survey.
    So, it has been asked every single time. But now today we 
are not even supposed to debate it. This is where the Left 
wants to take us.
    This is--think of what Judge Alito, previous member, [who] 
talked about the Supreme Court decision. Here is what Judge 
Alito said in his decision, concurring in part, dissenting in 
part. ``No one disputes that it is important to know how many 
inhabitants of this country are citizens.''
    He is actually wrong. I think--I think--making a good point 
but I think he is wrong. Every Democrat on this committee 
disputes that. The witnesses here in front of us they dispute 
that, even though all our constituents say yes, we should know 
how many.
    So, Mr. Yang, do you think it is important to know how many 
citizens are in this country?
    Mr. Yang. It is important under the Constitution, Article 1 
Section 2, to ensure that all residents are counted under every 
decennial census.
    Mr. Jordan. That is not the question I asked you.
    Mr. Yang. And if there is anything that detracts from that 
decennial census in terms of offering a fair and accurate 
count, that is a concern for the----
    Mr. Jordan. So, you disagree with Judge Alito? ``No one 
disputes that it is important to know how many inhabitants of 
this country are citizens.'' Do you think he is wrong? Do you 
think----
    Mr. Yang. That is not the objective of the decennial 
census.
    Mr. Jordan. Again, that is not what I am asking. Do you 
think it is appropriate to know how many people in this country 
are citizens?
    Mr. Yang. I would offer no further response because under--
we are here to talk about----
    Mr. Jordan. Let the record show the gentleman won't even 
answer the question.
    So, between 1820 and 1950 when our country asked 
inhabitants of this Nation, are you a citizen, was that wrong?
    Mr. Yang. I dispute what your--your understanding of the 
history of the question is with respect to the decennial 
census. We can--we can offer further testimony. We can offer 
further testimony.
    Mr. Jordan. So, the Census Bureau today on the American 
Community Survey should they be asking people the citizenship 
question. Do you disagree with what the Census Bureau is doing 
today as we speak?
    Mr. Vargas. May I answer that question, Congressman?
    Mr. Jordan. I addressed Mr. Yang.
    Mr. Vargas. Sure.
    Mr. Jordan. I am trying to get him to answer a question 
that he refuses to answer.
    Mr. Yang. I believe I did offer an answer. It might----
    Mr. Jordan. I asked you a simple question. Is it 
appropriate to ask a citizenship--is it appropriate to ask--to 
find out how many people in this country are citizens?
    Mr. Yang. It is appropriate to ask--under the census, the 
census that we are talking about, we are trying to determine 
the population of the United States and anything that detracts 
from the fairness and accuracy of that count would not be part 
of the mission of----
    Mr. Jordan. And then I followed up and said so do you think 
it is wrong that the Census Bureau on the American Community 
Survey is asking a citizenship question. Do you think that is 
wrong then?
    Mr. Yang. That is a survey instrument that has been tested 
in the context of the American Community Survey, which is a 
long--which previously was the long form and that is different 
than the decennial 2020 census.
    Mr. Jordan. OK. If you are not going to answer my question 
let me ask this. Is it okay to debate this issue or do you 
stick with what you said in your opening testimony and what the 
gentlelady from the District of Columbia said and what Mr. 
Vargas said, that we shouldn't even have a discussion about it 
because somehow that may impact what happens on the census?
    Mr. Yang. What I said was that the fact that this question 
was introduced has caused damage to the community and that 
damage continues to this day, as demonstrated by the studies 
from Mr. Vargas, as demonstrated by the Census Bureau itself. 
And so that is what we need to address to ensure a fair and 
accurate count on the census.
    Mr. Jordan. So, because of that concern you think it is 
appropriate to limit the First Amendment, limit speech, limit 
debate in the United States Congress? We shouldn't even have 
this debate? Is that what you are saying?
    Mr. Yang. That is not what I said. I said that what we need 
to do is to ensure that everybody is counted and anything that 
has done damage to the fact that everybody would be encouraged 
to participate in the census, which is something that----
    Mr. Jordan. You said that debate--in your opening statement 
you said the debate that took place over the last year on 
whether to include a citizenship question was harmful to what 
is going to happen on the census and the census count and being 
able to count the people across this country.
    That is what you said. And so what I am asking you is you 
don't think that debate should have taken place at all then?
    You don't think it is appropriate to have that debate in 
the U.S. Congress about something that, again, has been done in 
this country since 1820?
    Mr. Yang. I believe that you are mischaracterizing what I 
said----
    Mr. Jordan. I believe you won't answer the question.
    Madam Chair, I yield back.
    Chairwoman Maloney. Thank you.
    The gentleman from Missouri, Mr. Clay, is recognized for 
questions.
    Mr. Clay. Thank you, Madam Chair, and thank you for holding 
this hearing.
    Before I get into my line of questioning, I wanted to 
recognize Mr. Vargas and I saw you had something to contribute 
to that previous line of questioning.
    Would you like to pick it up?
    Mr. Vargas. The point I was going to make is that the 
Census Bureau does ask in the American Community Survey how 
many--if you are a citizen.
    But the research determined, Congressman, is which 
questions you ask and when you ask them has consequences. 
Asking a citizenship question on the American Community Survey 
is a different experience than asking a question on citizenship 
on the decennial.
    The researchers have determined that the better way to 
collect citizenship data of the American public is through the 
American Community Survey, not the decennial census.
    Mr. Clay. Thank you so much for that followup response. 
Even with our united efforts at an administration seeking to do 
the right thing the 2010 census missed some 2.1 percent of the 
black community.
    So, I am concerned that the current census sabotage efforts 
of this administration with their failure to hire, failure to 
allocate adequate resources, and scare tactics toward 
immigrants will lead to an unprecedented undercount.
    So, I want to thank the chairwoman for shedding a bright 
light on the issue in today's hearing.
    Mr. Morial, you are a veteran of several censuses. What are 
some of the major challenges that have led to an undercount in 
black and brown communities in past censuses?
    Mr. Morial. Historically, the undercount has resulted from 
the failure to count children completely and adequately, No. 1. 
The historic undercount of African-American men has contributed 
to the overall undercount in the African-American community.
    But let me focus, because I think it is important, on the 
2020 census where we are and why we are where we are. And so we 
are where we are because there has been historic over the last 
several years underfunding of the census.
    That underfunding has led to the cancellation of a number 
of tests that the census has done. It has meant the delay and 
the late effort to begin hiring the enumerators. It has been 
delays in doing the testing necessary to ensure that this 
online system works well.
    We don't want to have another healthcare.gov with the 
census.
    Mr. Clay. So, what----
    Mr. Morial. So, those things--those things----
    Mr. Clay. So, what now--excuse me.
    Mr. Morial. Excuse me. Let me--let me finish answering Mr. 
Clay's question.
    Mr. Clay. Go ahead. Go ahead.
    Mr. Morial. So, the undercount, I think, if we want to 
narrowly focus this year on what it is necessary to ensure a 
more complete count, the enumerator portion and the advertising 
campaign have to be energized.
    This committee has to do oversight. I encourage when the 
census director comes to get to the bottom line on where they 
are on the hiring of the enumerators because this is the point.
    Sixty percent--this is the Census Bureau's research--60 
percent of African Americans are going to rely on the door-
knocker to provide information, notwithstanding the internet, 
notwithstanding the telephone, notwithstanding the paper form.
    And the numbers for the overall population are in the 40 to 
50 percent range. So, the enumerator portion is so critical and 
if they don't hire the people that they need to hire--see, in 
2010 when they were hiring enumerators we were in a recession. 
Now the situation is different.
    Second, in 2010, you could go to a census office and apply 
for a job. Now you have got to go online. So, all of these 
barriers. We need to get to the bottom line in terms of where 
it is in order to ensure----
    Mr. Clay. And I appreciate that response. In your opening 
remarks you mentioned the media plan. Can you talk about your 
concerns with the media plan?
    Mr. Morial. So, right now, the media campaign--we have had 
a chance to look at some of the--get a early look at some of 
the commercials that are going to be focused on the African-
American community and they--some of them are pretty good.
    However, if the advertising stops when the enumerator 
followup portion of the census begins to take place, then there 
is no advertising telling--people could have the perception 
that the census is over.
    So, they need to expand the advertising for another, what 
is it, 45 or so, 60 days so that you have advertising taking 
place during the entire period that people have the opportunity 
to respond to the census.
    This is an alignment issue. So, again, I encourage, and it 
is also necessary for the African American population that the 
advertising not overly rely on digital ads, that it include 
radio, it include community newspapers, and the like.
    Mr. Clay. Print. Yes.
    Mr. Morial. So, I encourage you to probe this with the 
Census Bureau.
    Mr. Clay. My time is up. But I hope my friend from North 
Carolina understands that the key is communication with the 
public.
    So, I yield back.
    Mr. Meadows. I will never--I will leave it there.
    Chairwoman Maloney. The gentleman from the great state of 
North Carolina is recognized for five minutes----
    Mr. Meadows. I thank--I thank the chairwoman.
    I thank the gentleman from Missouri----
    Chairwoman Maloney.--for questions.
    Mr. Meadows [continuing]. For his congenial way of where he 
communicates. I miss his red glasses. I don't see your red 
glasses so--you have got gray ones. All right.
    So, let me get to the bottom line on all of this and, 
hopefully, will offer a little bit of help.
    I have conducted more census hearings probably than any 
other Member of Congress in the previous administration and 
this one. What I do want to get is an accurate count and so I 
am going to offer a few things that maybe some of you can 
consider.
    Mr. Allis--is it Allis? Here is one of the things I would 
ask you to do. From the Native American standpoint, if you will 
help us with the rolls of a few tribes where we can do some 
sampling to make sure we are reaching those underserved areas.
    I happen to have--I believe I had the first Congressional 
Office on Tribal Lands in the history of our country. I have 
the eastern band of the Cherokee Indians in my--in my district 
that I am--I proudly acknowledge their sovereign right.
    So, if you will do that and get that to us, we will be glad 
to do that. I am sure I can find some members on the other side 
of the aisle to work with us.
    One of the concerns I have, just bluntly, is reaching those 
underserved areas because the internet is not available.
    You know, we were talking about 5G yesterday. In most of my 
district I would just like 1G, let alone 5G. So, if you will do 
that I would appreciate that.
    Mr. Morial, one of the areas that I think that is key is if 
there is false information that is being put out there in 
predominantly urban areas that is not something that I have an 
expertise on.
    But if you will get that to us, here is--here is what I 
would ask of you. I have actually traveled under the previous 
administration with enumerators that were actually out in the 
field, one of the few members to have done that. I understand 
the challenges.
    But the other thing is TV advertising is not going to reach 
the people that we need to reach and I think all of you will 
agree with that. It just doesn't do it.
    So, what I would ask you to do is to come up with something 
where we can do direct text messaging. You know, it is 
interesting.
    They may not have internet service. They may--but they 
eventually come into contact most with one of these and where 
we can do that with credible sources I am willing to work with 
you.
    We have spent over $500 million trying to do an outreach. 
Some of that has been--well, not misappropriated but 
misallocated in terms of concentrating in certain areas.
    I am willing to work with all of you on that particular 
issue. Mr. Moore, you are giving us a great roadmap for rural 
America. But you are not getting any Federal funding, are you?
    Mr. Moore. No, sir.
    Mr. Meadows. How many of you are getting any Federal 
funding as it--either directly or indirectly with your groups 
in terms of outreach? Raise the hands. Anybody? All right.
    Well, we are spending $500 million on outreach so here is 
what I--and my commitment to each one of you is that if you 
will reach out to me I will work with the committee.
    But we will work with the Commerce Department because I met 
with them more times than I care to mention over trying to get 
an accurate count.
    If you will do that--Mr. Morial, if you will do that I will 
help you. Mr. Allis, if you will help us with Native American.
    Certainly, some of the other areas I don't have as much 
expertise. We don't have a large Asian population in western 
North Carolina.
    But at the same time, if you--I am sincere about getting an 
accurate count. You know, when we start to focus on the 
citizenship question we are making--we are making drastic 
errors and, Mr. Morial, I think you will agree with this.
    We have undercounted in 1970. We undercounted in 1980. We 
undercounted in 1990. We undercounted in 2000. There was a 
citizenship question then and to suggest that somehow it is 
uniquely to 2020 is just not accurate.
    I mean, I am a numbers guy and I am willing to work with 
you. But if you all will work with us on how we can reach these 
underserved and hard-to-reach communities, we will get an 
accurate count.
    Are you all willing to do that?
    Mr. Morial. I am, you know, open. I think that--when the 
census director is here I think the extent and the character 
and the magnitude of their outreach should be probed by the 
committee.
    Mr. Meadows. Well, I will probe it. But let me just tell 
you, I had the previous census director under President Obama 
here and I expressed great concerns that we were not going to 
be ready and I didn't want there to be egg on my face because 
they were not asking for enough money.
    We have funded the census at levels that are unprecedented. 
So, it is not a problem of money. It is a problem of 
allocation, and if all of you will agree to help us with that, 
I am willing to call a five-alarm fire to make it work.
    Mr. Morial. I do want to do this because I want to make the 
record clear. The Census Bureau does not fund community-based 
outreach.
    Mr. Meadows. We have got $500 million. I beg to differ.
    Mr. Morial. They don't do a thing to fund----
    Mr. Meadows. I can tell you, we work with----
    Mr. Morial. They don't fund organizations that do 
community-based outreach. They fund their own people.
    Mr. Meadows. But we fund groups to actually be the--on part 
of it--I can promise you--as a line item. I have actually 
talked to the groups. And so we will be glad to clarify that.
    Mr. Morial. None of us, huh?
    Chairwoman Maloney. I now recognize Congressman Connolly 
from Virginia for questions.
    Mr. Connolly. I thank you, Madam Chairwoman.
    And welcome to our panel. I want to go back to an assertion 
made earlier and ask particularly you, Mr. Yang, to respond 
because the ranking member would have you believe that for some 
mystical reason Democrats just don't like this question about 
citizenship and it is a harmless question and it is a piece of 
data we really need.
    I thought I heard from your testimony that maybe there was 
a more malign purpose behind adding a question that formerly 
has not been asked in the census survey, as I understand it, 
since 1950.
    And it wasn't Democrats who objected, ultimately. It was a 
court of law. It was a Federal judge who decided that--and he 
was upheld by the Supreme Court, ultimately, because the 
Commerce Department in its eagerness to add this question, 
which we now know from the release of emails, was political 
inspired to depress and suppress cooperation with the census 
deliberately to create an undercount of minority populations, 
especially ones you were talking about and maybe you represent, 
Mr. Yang.
    The fastest growing population, certainly, in my district 
is Asian American and the fastest piece of that is South Asian.
    We want everyone counted, as the chairman said in her 
opening statement, citizen and noncitizen. The Constitution 
requires it and fairness demands it.
    So, I just want to give you an opportunity. I mean, is this 
some conspiracy by one of the two political parties to avoid 
getting data on what otherwise ought to be a simple analytical 
tool--a question about your citizenship status?
    Mr. Yang. Thank you, Mr. Connolly, for that question and I 
must say that I am proud to be a constituent of your 
jurisdiction.
    Mr. Connolly. God bless you.
    [Laughter.]
    Mr. Yang. This goes to what Mr. Vargas was saying. Let me 
correct the record first with respect to the citizenship 
question.
    It is incorrect to say that the citizenship question has 
appeared on every decennial census for 200 years.
    Mr. Connolly. Correct.
    Mr. Yang. That is factually incorrect. It has appeared on 
the American Community Survey which, as Mr. Vargas has 
testified, is a completely different instrument that has been 
tested.
    Mr. Connolly. And doesn't go to every household.
    Mr. Yang. And does not go to every household. It goes to 
three percent of all households.
    Mr. Connolly. Let me just interrupt, if I may, Mr. Yang, to 
establish your point. Am I correct? The last time it was on the 
actual census survey was 1950.
    Mr. Yang. On the decennial survey was 1950. That is 
correct.
    Mr. Connolly. Yes. So, the idea that it is just customary 
and ordinary is flat out false. I mean, 1950 is 25 years ago?
    [Laughter.]
    Mr. Yang. If we can only wish. That is--that is correct. 
That is correct. Again, the concerns that we expressed in 
litigation and all our groups expressed was that this question 
was proposed with no testing and already understanding the 
Census Bureau itself as research had already presented to us 
that there was a fear within the immigrant community about 
information that was being collected about them.
    So, to suggest that this question should be--just be 
introduced willy nilly without any testing caused great concern 
to us.
    Certainly, we--during the course of litigation, as is 
public now, there have been documents that have been uncovered 
from Mr. Hofeller that the people testified to earlier--
addressed earlier with respect to the fact that including the 
citizenship question could cause the--be politically 
advantageous to non-Hispanic whites and, certainly, for my 
community, Mr. Vargas's community, and many of our communities. 
That is a deeply troubling fact.
    Mr. Connolly. You also raised the question of other 
languages and although, clearly, an effort has been made to try 
to expand the number of languages in which the census is 
presented, given the pluralistic nature of America and the 
diversity of so many of our communities, including the one you 
and I live in, where over 120 languages are spoken, what do you 
recommend we try to do to maximize participation and get over 
the language barrier?
    Mr. Yang. Well, thank you for that, and I would certainly 
take Representative Meadows up on his offer to work with him 
with respect to our community.
    It is ultimately the objective for the decennial census to 
ensure that we have a fair and accurate count of all of 
America.
    What I would offer is even closer coordination with the 
Census Bureau. We have talked about some of the different 
aspects in which closer coordination could be helpful.
    One of the benefits of technology is that we will have 
really real-time information about jurisdictions in areas that 
are not responding at a rate that we would want.
    And so at that point community organizations should work 
with the Census Bureau to figure out what is the best strategy 
to followup with those communities and that is not a device 
that would have been available in 2010 or 2000 to the robust 
degree that we have now.
    With respect to languages, again, it is with trusted 
messengers. Mr. Vargas spoke very eloquently about a number of 
them.
    I would add one more, which is minister, pastors, our 
churches, and ensuring that they are part of that trusted 
messenger community that can get accurate information in 
language information for many of these churches to those 
communities in a way in which they would respond.
    Mr. Connolly. I thank you. My time is up.
    Thank you, Madam Chairman.
    Chairwoman Maloney. Thank you.
    Mr. Hice--Congressman Hice of Georgia is recognized for 
five minutes for questions.
    Mr. Hice. I thank the Chair.
    I would like to begin by thanking each of the panelists for 
being here. But, Mr. Moore, you are doing a fantastic job in 
South Georgia and I am deeply grateful for the leadership that 
you are exhibiting there.
    And, Madam Chair, I would like to ask unanimous consent to 
add to the record--he had mentioned a PowerPoint presentation 
that none of us got to see.
    But I would ask unanimous consent for that to be added.
    Chairwoman Maloney. Without objection, so ordered.
    Mr. Hice. Thank you.
    It is interesting to me that we are coming to--all of us, I 
think, on both sides of the aisle agree that what is most 
important is to get an accurate count.
    Yet, what seems to hijack every one of these census 
hearings is the citizenship question and I, again, would assume 
that everyone in this room would agree it is important for us 
as a country to know how many people here who are citizens.
    That is about as basic as you can get. It is important for 
us to have that information. How we go about getting it is--I 
supposed there is multiple ways for that to be done. But what I 
get annoyed at is how that issue is used really to attack the 
president and I don't think that is fair.
    I think that is unnecessary and there is no reason for us 
to create an atmosphere of attacking the president on something 
constitutionally based as the census is.
    I would just urge my colleagues on the other side to just 
take the politics out of this and let us try to get to the 
issue of an accurate count.
    Mr. Moore, with that, I am grateful for the work that you 
are doing in south Georgia. Just from a broad perspective, how 
important is the impact in rural communities to having an 
accurate census?
    Mr. Moore. Thank you, Congressman. It is critical, 
especially for us. I live in a community that has a 46,000 
population. I have taken notes from all of our speakers and we 
are all working, I think, on the same primary goal.
    Colquitt County is a large agricultural community. We have 
a large migrant Hispanic population and one thing that really 
attributed to our success in 2010 as we had a lady named Bertha 
Riojas that worked with County Extension and she did prenatal 
programs, food and nutrition programs, finance programs with a 
lot of the migrant populations and they trust Bertha.
    So, she was on our Complete Count Committee and if she told 
them it was something that they needed to do, they participated 
in the census.
    I think they have even learned from that so this year on 
the committee they have got representatives from Guatemala and 
Honduran, Haitian, different subcultures within that group.
    But it is critical. We talked about it briefly early on. 
The census data impacts everything that we do from an economic 
development perspective.
    Mr. Hice. OK. Hit on that. From an economic development 
perspective, how does the census economic development?
    Mr. Moore. It provides jobs. I mean, I have been in 
economic development for 25 years. If you have got an industry 
that is looking at your community they are going to want to 
make sure that they have people there that can work. They are 
going to want to go to communities that are growing, have good 
education, good health care and can provide the workers that 
they need.
    If you are looking at opening up a restaurant or a dress 
shop, you are going to want to make sure you have consumers 
that can purchase your goods. They are going to want to go to 
communities that are growing.
    And I am extremely competitive. I always wanted to win the 
deal but I always wanted all of my neighbors and everyone 
around me to do well, too, because companies don't look at 
county lines.
    They don't look at city lines. They look at market draws. 
So, for a work force perspective, we had 21,000 workers in 
Colquitt County but we had 185,000 workers within a 30-minute 
drive and that is what we sold.
    So, it is critical--again, education, health care, social 
programs, economic development, your grant data for roads, 
water, sewer, bridges. Anything you do ties back to economic 
development.
    Mr. Hice. So, I think it is important for all of us to 
understand that the census has a great impact not only just on 
our country but on rural communities in particular.
    So, with that and with the move this go around to go more 
online oriented, what is the absence of broadband in so many 
rural communities--what kind of impact will that have in 
getting an accurate count?
    Mr. Moore. With us, we have worked on the awareness and 
education statewide, really. We know which areas don't have 
broadband. We already know that they are going to get a written 
form in that initial mailing that comes out on March 12.
    They will also get another written form in the fifth 
mailing that will come back out on April 8 and we have also 
made arrangements for citizens--I mean, we have talked about 
Wednesday night suppers at church having tablets there, having 
computers there that people can fill out the forms, festivals 
having opportunities to fill out the forms.
    Again, your libraries, your farm bureau, your city council, 
county commission, anywhere that people congregate. And making 
it easy for them. I think that is what is really critical.
    If you explain why the census is important to them, their 
families, and their community and tell them what it is and what 
it isn't, most people are going to voluntarily fill it out.
    I heard some low numbers earlier as far as response rates 
before people come to the doors. We have got maps on all 159 
counties and many of our counties have gotten 80, 85 percent 
voluntary response, which is what you want so you don't have to 
send the enumerators door by door unless we have a really low 
turnout and low response rate.
    Mr. Hice. Thank you. I yield.
    Chairwoman Maloney. Thank you very much.
    I will now call on Mr. Krishnamoorthi of Illinois for five 
minutes for questions.
    Mr. Krishnamoorthi. Great. Thank you so much, Chairwoman 
Maloney and Ranking Member Jordan, for calling this committee 
hearing. Thank you to our panelists for being here.
    I am so glad that all of you are so committed to an 
accurate census for 2020. I think one very important 
institution for having an accurate census are our local public 
libraries.
    My family and I are big fans of local public libraries. 
With three kids you have to be--14, 10 and 3. I joke that with 
a teenager and a toddler I am ready for anything in Congress.
    But we have a few public libraries in our area--Gail Bordon 
Public Library, Bloomingdale Public Library, and the Schaumburg 
Township District Library that are doing an excellent job of 
going above and beyond to make sure that hard-to-count 
communities are actually counted during the census.
    So, with that, Ms. Gupta, can you speak to the services 
offered at many public libraries that could help hard-to-count 
communities respond to the census online such as computers and 
wifi access?
    Ms. Gupta. Yes. The libraries are actually all over the 
country some of the most critical partners and institutions 
rooted in local communities to help get public education out 
and be providing services to communities around actually 
filling out the census and the American Library Association has 
been working with our coalition and members of this committee 
regarding the Bureau's plan for mobile questionnaire assistance 
centers and other key issues.
    We have expressed some concern about what the Bureau is 
doing around kind of the lack of information that we have 
around where those mobile questionnaire assistance centers are 
going to be.
    But the libraries have been incredibly important and we 
know--we have a map. The community map actually shows around 
the country where libraries are in hard-to-count communities.
    So, we can actually do very targeted outreach. The Bureau 
can do very targeted outreach based on mapping literally at--
within hard-to-count communities about how libraries can play a 
really critical role.
    But we have to make sure the Bureau is actually equipped to 
do that.
    Mr. Krishnamoorthi. Great.
    Mr. Yang, in my district library is leading the census 
outreach efforts there, have partnered with local schools where 
over 100 languages are spoken in our local public schools.
    What are the--what are some of the challenges you see in 
counting people in places like my district where there is such 
a wide diversity of languages spoken and how do libraries help 
facilitate?
    Mr. Yang. Well, certainly, libraries, and then you are 
absolutely right, public schools will play an important role. 
Oftentimes, public schools, because school districts because 
they know the composition of their students, which is the 
emerging population for our entire country, will be able to 
tailor their language needs even more specifically.
    So, for example, my school district offers many languages 
that are not offered by the Census Bureau. So, working with 
those schools--I, like you, have young children--I rely on what 
we call the Thursday folder that comes home with my student.
    Even if I don't read all the mail that comes with respect 
to advertisements, et cetera, I will read everything that comes 
for my child that is provided by my teacher.
    So, if they have statistics in schools' classes, if they 
have other programs that allow census information, and I know 
that the Bureau is working with the schools to do things along 
those lines along with the libraries to make sure that 
information goes, again, from trusted messengers. That will go 
a long way toward helping.
    Mr. Krishnamoorthi. Great.
    Mr. Vargas, you know, one of the things that we fear 
because of the presence of the citizenship question or the 
mention of it previously is kind of the fear of institutions.
    Do you sense that maybe immigrant communities might be more 
apprehensive or fearful of using their local public libraries 
in light of all the discussion around the citizenship question?
    Mr. Vargas. Congressman, I have not seen any data about 
immigrant perception of public libraries. But I have seen data 
where immigrants do find credible messengers among 
schoolteachers, health care providers, local community leaders, 
faith leaders.
    And so we need to engage those leaders in our communities 
as census Ambassadors as well.
    Mr. Krishnamoorthi. And how are we doing that, by the way?
    Mr. Vargas. Well, we are doing it ourselves and through the 
efforts that each of these organizations represented here are 
launching their own campaigns in our communities and we are 
closely coordinating with the Census Bureau.
    What we need also is for the Census Bureau itself, for 
their staff--because they have the resources. We don't. And 
they have $500 million that they are allocating to a campaign.
    That campaign should, clearly, educate the American public 
about what will not be asked on the census so that we can help 
them overcome the fear about providing the government with 
information that they perceive might be used against them.
    So, we need the power of the Census Bureau's resources to 
do a much more thorough education job of the American public so 
that they can be confident in participating in the census.
    Mr. Krishnamoorthi. Great. Thank you so much.
    Thank you, Chairwoman.
    Chairwoman Maloney. Thank you.
    Mr. Comer of Kentucky is recognized for five minutes for 
questioning.
    Mr. Comer. Thank you, and before I begin my questioning 
about my concern for an undercount in rural America, especially 
rural Kentucky, Madame Chairwoman, with all due respect, I 
wanted to correct an inaccurate statement that you made with 
regards to the president wanting an inaccurate count--he didn't 
want an accurate count.
    That is not true. The president represents the majority of 
working taxpaying Americans who simply want to know how many 
citizens reside in the United States who are not legal American 
citizens.
    That has absolutely nothing to do with the final count. 
Every person residing in the United States will be counted in 
the census and that will apply to the Electoral College.
    So, I wanted to correct that inaccurate statement, and I 
also want to shift gears and talk about my concern for an 
undercount in rural America.
    A 2016 American Community Survey showed my congressional 
district, the 1st congressional District of Kentucky, as having 
the greatest share of households with no internet subscription 
or only dial-up connection.
    I am sad to say 29 percent of the households in my 
congressional district, which is extremely rural, have either 
no internet subscription or dial-up connection.
    That is an unfortunate situation that I place a lot of 
blame on the last two Kentucky gubernatorial administrations 
but it is something that my office is working very hard on. 
Whether it is the Farm Bill or any other piece of legislation 
that deals with funding for rural internet access, that is 
something that we strongly supported in my congressional 
office.
    But as the 2020 census approaches, I echo the concerns that 
others have raised here about constituents being reached in 
hard-to-count areas, especially rural America.
    The 2020 census is the first time that Americans will be 
able to respond using the internet and I want to ensure that 
those with lack of internet and broadband connectivity aren't 
left out because I think we would all agree that rural America, 
where the overwhelming majority of lack of internet is, is 
overwhelmingly Republican.
    And we have heard a lot of people express concerns about an 
undercount in different communities and I just want to echo my 
concern about an undercount in rural America.
    I also have learned that the most difficult population to 
accurately count are children under the age of five.
    Mr. Moore, why do you believe children are undercounted in 
rural communities?
    Mr. Moore. I think it could be any community and one--and 
this isn't a real example but it is one that is realistic--you 
may have a single mother that has three children in her 
household and her landlord may think there is only one child in 
that house.
    So, when they get that question and it asks how many people 
are living in the house they may either not answer at all or 
not be accurate on it. So, you get an undercount in that 
situation.
    And where it really impacts us from a community development 
level is our schools use that census data for planning.
    Mr. Comer. Exactly.
    Mr. Moore. So, if they are looking at that census data and 
they are expecting a hundred kids to show up for kindergarten 
the first day----
    Mr. Comer. Right.
    Mr. Moore [continuing]. And because we don't have an 
accurate census count you have 200 children showing up the 
first day, then you have got classroom shortages.
    You have got teacher shortages. You don't have enough 
books. You don't have enough materials. So, that is just one 
example and that is something that we share with other people 
so they can try to come up with a way to address that question 
if it comes up--you know, why is it important for me to list 
everybody in my household.
    That is why it is critical that you have, again, very 
diverse large Complete Count Committee that can work with 
different demographics in the community that have influence 
with them and that know the answers to the questions.
    And I think we have all said it. If people know what it is 
and what it isn't, most people are going to voluntarily fill 
out the census.
    Mr. Comer. Right.
    Mr. Moore. It is that fear that keeps them from 
participating voluntarily.
    Mr. Comer. You mentioned in your testimony the efforts that 
you have made in Georgia about recruiting census workers and I 
just had someone in my district office in Tompkinsville trying 
to recruit more workers for the--for the census.
    My last question--and my time is running out--what is being 
done to prevent fraud from census takers, either intentionally 
over counting or intentionally undercounting residents?
    Because I know there are a lot of groups in America that 
are--that are really doing their best effort, and we are too, 
to try to get every single person counted, for obvious reasons.
    Mr. Moore. U.S. census workers are credentialed and I can't 
necessarily or accurately address that question. But I will 
tell you something that I share with many of our smaller 
communities, and do it briefly. I know we are over time.
    In 2010, Colquitt County didn't but a lot of our smaller 
rural communities had census takers from Atlanta, from 
Birmingham, and from out of state that were in our communities 
walking door to door.
    That is not a good thing because they are not familiar with 
the community or the neighborhoods and, honestly, they are not 
vested.
    So, what we did in 2010 in Colquitt and doing throughout 
Georgia right now is encouraging all of our Complete Count 
Committees to come up with lists of potential employees and 
volunteers that can apply for those jobs.
    That way you have got somebody local that is vested. They 
know how important it is for their community. They know the 
neighborhoods better.
    I think somebody mentioned not going into a neighborhood 
because they didn't feel safe. You will have a lot higher 
response rate if you get local people hired in those positions.
    Mr. Comer. Exactly. I agree completely.
    Well, thank you very much.
    And, Madam Chair, I yield back.
    Chairwoman Maloney. The gentleman yields back.
    Mr. Raskin of Maryland is recognized for questions from 
five minutes.
    Mr. Raskin. Madam Chair, thank you very much and thanks for 
calling this important hearing.
    Successful voter turnout in an election depends on public 
trust that people's votes will be counted fairly and a 
successful civic turnout in a census also depends on public 
trust, specifically trust that our information will be kept 
secure and that nothing that we write down, no information we 
provide, will be used against us.
    This trust challenge is a difficult one in an age of social 
media-drive conspiracy theories and Russia propaganda campaigns 
to sow distrust among Americans in our society and just the 
background levels of paranoia about government and politics.
    So, that places an extra burden on government not only to 
act with complete integrity and transparency but also to bring 
a positive message about democratic government and 
constitutionally established practices like the census to the 
people.
    So, Ms. Gupta, let me start with you. How do you think a 
lack of trust in the privacy and security of the census could 
lead to an undercount in American communities?
    Ms. Gupta. Well, I think there is no question that a lack 
of trust in privacy could have people basically chill 
participation in the census if they feel that their data will 
be misused or turned over to other government agencies and the 
like. It is why all of our organizations sitting at the table 
have done so much public education.
    We believe the Bureau needs to do more public education 
about the existing Federal laws, very robust, that safeguard 
the confidentiality of census data.
    The law is clear as day. But as several of my colleagues 
have said, the specter of the citizenship question really 
caused people to have even greater mistrust about what the 
motives were for the census and that is what we are all seeking 
in our local communities, in our campaigns, to overcome.
    There are very good answers, as I said. The Federal law 
could not be clearer.
    Mr. Raskin. In 2018, the Census Bureau conducted a survey 
focusing on hard-to-count communities, which found that 28 
percent of respondents were very concerned or extremely 
concerned that their answers on the census would not be kept 
confidential and 22 percent, or more than one in five, were 
very or extremely concerned that their answers could somehow be 
used against them.
    And as you are pointing out, none of those things can 
happen under the law and we want to send the message to people 
that no information that you put on the census can be used 
against you and it is secure and it is confidential.
    Madam Chair, I ask unanimous consent for the report of the 
Census Bureau to be entered into the record. I brought a copy 
with me today.
    Chairwoman Maloney. Without objection.
    Mr. Raskin. Mr. Morial, what kinds of confidentiality 
concerns do you think might keep some of your constituents or 
former constituents from filling out a census form?
    Mr. Morial. I think confidentiality concerns, particularly 
in the age of the internet and the age of social media, are 
elevated because of what occurred in the 2016 election, what 
people hear about hacking.
    It is very important that we push back against that through 
public education, through positive messages, to assert that it 
is the law that the information that the census collects is 
confidential and that it is a violation of the law and it is a 
violation of the criminal laws to expose that.
    Mr. Raskin. That is great.
    Mr. Morial. I think it is important that the census and any 
other agencies be vigilant and closely watching and that we 
will be closely watching and report anything untoward that we 
might sense.
    But we have got to encourage confidence by people as to 
what the law is to push back against this because it does 
undermine people's willingness to participate, as you 
mentioned, in all civic processes----
    Mr. Raskin. Yes.
    Mr. Morial [continuing]. Both being the census and the 
like.
    Mr. Raskin. Mr. Allis, can you describe how trust levels in 
the Federal Government in Indian Country might affect census 
participation specifically there?
    Mr. Allis. Yes. Thank you, Congressman, for that question.
    So, there is no mystery and everybody knows or at least it 
is widely known that historically Indian Country has had a 
little bit of distrust toward the Federal Government, given the 
way the government has treated American Indians for the past 
200 years.
    The trust level is impacted negatively by the lack of 
proper attention given to educating and making the American 
Indian and Alaska Native population understand the purposes of 
the census--what it can do, what it can't do, how to properly 
fill out questionnaires.
    And even more important is the communicators that interact 
with Indian Country--are they--are they knowledgeable enough to 
understand the culture and traditions in an appropriate manner 
to be able to communicate and navigate within a very unique 
population.
    When you get folks that don't have that familiarity, they 
are not trusted voices.
    Mr. Raskin. Well, do you think the Census Bureau is 
attentive to that concern that you are raising?
    Mr. Allis. They have identified that as an issue, okay, in 
their own background. But we have yet to see if they have--we 
are concerned about the proper resources when it comes to 
number of enumerators, who they are, are they prepared to go 
out there and be able to accurately interact with the 
community.
    As we have heard from some of the others, we know that 
applying for these jobs in this particular has become much more 
difficult.
    It is online. It is a longer process. It is a longer 
vetting period, and we are not certain that this particular 
trust aspect within Indian Country will be addressed properly 
because of that.
    Mr. Raskin. OK. I think my time has expired.
    I yield back, Madam Chair. Thank you.
    Chairwoman Maloney. Thank you.
    Mr. Grothman of Wisconsin is recognized for five minutes 
for questions.
    Mr. Grothman. Thank you.
    The first point I would like to make, and I am a little bit 
offended here. I think one of our witnesses today said 
President Trump is anti-immigrant.
    In the most recent year available we had 756,000 people 
sworn in this country legally, which is the highest it has been 
in several years. And to call a president anti-immigrant when 
that happens is just a ridiculous partisan slap and not true.
    I believe it was Mr. Vargas who said--I am not sure--but at 
least in my district people of--whose ancestors are south of 
the border I can think of a lot of them who are very pro-
immigrant but do not want people breaking the law.
    And insofar as you feel that because you are--represent 
something called the National Association of Latino Elected and 
Appointed Officials, I just want to make it clear to anybody 
else listening out there today that at least in my district 
people of descent south of the border do believe in obeying the 
laws and they would object to the idea that you would imply 
that President Trump is anti-immigrant because he is for 
enforcing the laws.
    Now, my next comment is seeing the groups we have before us 
today I think there is an effort in this country to permanently 
divide America by having people obsess over their ancestry.
    There are conflicts here in this building. There are 
conflicts by occupation, as people want to, you know, have more 
or less credentialism.
    Gun owners are always under attack. I think about a year 
ago the Knights of Columbus were under attack. We always have 
the ongoing conflict between taxpayers and tax takers.
    But I think when we set up so many groups like this it 
creates a false narrative that we have going on in America is 
disagreement by racial background. I disagree with that.
    But thinking about that, over time I think, due to 
intermarriage, we are going to have--it is going to become more 
apparent that there is less and less of that sort of conflict 
here and I am going to ask you folks when I fill out the census 
form or when somebody else fills out the census form how 
exactly they should fill it out when you have a mixed 
background.
    You know, I can think of several people here who--that I 
know are, say, one-half Latin and one-half direct European in 
ancestry. How should you fill out the form if that is your 
background? We will ask Mr.--Ms. Gupta. We will ask her. Half-
half. How do you fill out the form?
    Ms. Gupta. The census allows you to self-identify as to 
your question around racial background and ethnic background.
    Mr. Grothman. So, in other words, there is no rule.
    I will give you an extreme example. OK. We have a woman 
running for president right now, Elizabeth Warren. She was very 
proud.
    She held a press conference that she was, whatever, 1/64th 
Native American and, apparently, she used that when she applied 
for a job a while back.
    Do you think it is appropriate that she would fill out the 
form that she is Native American?
    Ms. Gupta. The census permits self-identification.
    Mr. Grothman. Do you think it is okay, though?
    Ms. Gupta. I think it should be accurate information.
    Mr. Grothman. Do you think that is accurate?
    Ms. Gupta. That self-identification is accurate 
information.
    Mr. Grothman. OK. Well, we will ask Mr. Allis. To be a 
member of a tribe--I don't know about your tribe but a lot of 
tribes you have to be at least one-quarter the background of 
that tribe. But it means you are three-quarters something else.
    If somebody who is one-quarter Native American ancestry and 
three-quarters European ancestry would it be appropriate for 
them to fill it out European and would it be appropriate to 
fill them out Native American or how should they fill that out?
    Mr. Allis. So, my tribe is located just north of your 
district.
    Mr. Grothman. Yes, I know. I know.
    Mr. Allis. And if you are a member of a federally 
recognized tribe you have the absolute right to represent 
yourself as a Native American.
    As I--as the other of my colleagues on the panel have 
accurately stated and which the number of consultations that 
NCAI has conducted or has hosted with Census Bureau when that 
question has come up within Indian Country audiences, the 
answer has been you self-identify in a manner that you think is 
appropriate, which--it has caused some level of confusion.
    OK. But it is the standard statement that is made by folks 
at the U.S. Census Bureau when addressing that particular 
question.
    And I will--and I will make a little adjustment to or 
comment--trying to understand. There is no difference in a 
particular tribe. If you are a tribal member and you are 
unenrolled and you are enrolled and you are a quarter member or 
a three-quarters member, you are a tribal member.
    Mr. Grothman. Right. I understand. I am just saying the 
average American if you--I don't think the average American 
race obsesses like some people here but the average American, I 
think--if you had a friend who was three-quarters European 
ancestry and one-quarter Native American, I don't know, that 
they--okay, thank you.
    Mr. Yang. Can I just clarify something very quickly?
    You can check as many categories as you want, too. It is 
self-identification. But you can check multiple categories if 
you identify in that manner.
    Mr. Allis. Can I just say one thing about that, 
Congressman?
    There is a lot of quarter blood American Indians in this 
country and most of the rolls go back to you have to trace 
somebody back to a roll as far back as the late 1800's. So, we 
are talking about three to four different generations.
    So, Congressman, I would suggest that a quarter blood over 
three to four or five different generations is a significant 
amount of American Indian blood in any particular person.
    So, whether somebody is a quarter Indian or three-quarters 
something else is a really kind of interesting way to look at 
it to question how somebody would identify themselves.
    Chairwoman Maloney. The gentleman's time has expired.
    Mr. Grothman. Thank you.
    Chairwoman Maloney. The Chair now recognizes Congressman 
Sarbanes from Maryland for questions for five minutes.
    Mr. Sarbanes. Thank you, Madam Chair. I want to thank 
everybody on the panel. This is a really, really critical 
discussion we are having today in many respects.
    Talking about the importance of being counted is talking 
about empowerment and justice, dignity and respect.
    Ms. Gupta, you are here a lot testifying and you are here 
because the Leadership Conference provides fundamental advocacy 
on these important issues of empowerment. I want to thank you 
for that.
    We have had the opportunity of working closely together on 
efforts to protect and reform our democracy. I thank you for 
it, especially as it relates to voter suppression and it occurs 
to me that voter suppression and attempts to reduce census 
participation are really two sides of the same coin. They are 
about pushing people, oftentimes minority communities, out of 
our democracy when we need to be pulling them into our 
democracy.
    And if you think about it, the two most fundamental ways or 
opportunities that people in this country have at empowerment 
or to be counted at the polls and to be counted in the census.
    That is the way somebody is able to stand up and say, here 
I am. I count. I matter. My voice is important.
    So, I am very concerned about something that I believe you 
referenced in your testimony, at least in your written 
testimony, which is the potential for census-related 
disinformation efforts.
    We talked about the importance of getting good education 
and information out there and why we need to lean on that as 
strongly as we possibly can.
    But we also have to combat disinformation when it comes to 
the census process.
    Could you discuss what census-related disinformation could 
look like, how it can be spread, and what the negative effects 
of it might be?
    Ms. Gupta. Thank you, Congressman, and thank you for your 
leadership on so many of these issues.
    So, we have been deeply concerned about census-related 
disinformation, which really seeks to persuade masses of people 
to kind of not participate in the count and disinformation is 
usually pushed by bad actors with trying to propagate false 
information to make that viral to scare people away from 
participating and it can contain false information about who 
can participate, about when to participate, about how to 
participate, and it can spread through social media and 
networks.
    The negative effect can be, literally, that countless 
people count themselves out, meaning that they do not fill out 
the census as a result and they will then, therefore, miss out 
on Federal representation, on being represented in state 
districts and on the--you know, being counted for purposes of 
schools and hospitals and health care and the like.
    We have been--many of our groups have been very actively 
working with social media companies around ensuring that they 
have as--that they are developing policies to prevent census 
interference right now and I can--I can say more about that.
    Mr. Sarbanes. Yes, let me ask you about that because I 
gather that last month Facebook announced a new policy on 
census interference on its platform--disinformation being 
spread on its platform and said it is not going to allow those 
kinds of misleading posts that would reduce census 
participation.
    Can you give me a sense of how you think that policy is, 
whether it is strong enough, whether others can be invited into 
taking similar kinds of action on these digital platforms?
    Ms. Gupta. Yes. The Leadership Conference and other civil 
rights groups actually pushed very vigorously with Facebook at 
the very highest level of the company to ensure and gave very 
detailed input on what would be required to actually have a 
rigorous and robust census interference policy.
    We commended Facebook when they announced their policy for 
developing, really, what to date is the most comprehensive 
policy in the sector for combating census interference.
    As you know, we have not been commending Facebook for very 
much recently but that was a significant achievement.
    Facebook announced that they will--that any content that 
violates their census interference policy will be allowed--will 
not be allowed to remain on the platforms as newsworthy, even 
if it is posted by a politician and that was a pretty 
significant step for the company.
    They have created an enforcement kind of protocol and we 
want to make sure, though, that they are going to continue to 
engage with stakeholders in meaningful ways such as hosting an 
external census working group to complement their internal 
efforts and we have asked the company to share information that 
they are getting about the targets of particular disinformation 
campaigns so that the Bureau--the Census Bureau and our 
organizations can then come in and flood the zone with the 
accurate information to make sure nobody is lost as a result.
    Google and Twitter have both made more general statements 
that they will treat the census like an election. But we have 
yet to see the kind of detailed policies that we need to see 
from them and our hope, now that Facebook has come out with 
this, is that all social media companies are going to follow--
are going to follow suit and we are going to be very, very 
active in trying to push that both for the census and 
elections.
    Mr. Sarbanes. Thank you very much--my time is up--again, 
for the work of the leadership, to all on the panel.
    And, Madam Chair, it might be a good idea for us at some 
point to have a hearing where we can see what the feedback is 
on what these digital platforms are discovering in terms of 
census interference.
    With that, I yield back.
    Chairwoman Maloney. That is an excellent idea. We will 
followup on it.
    Mr. Cloud of Texas is recognized or five minutes for 
questions.
    Mr. Meadows. Madam Chairman, I have got one point of 
clarification before--if that is all right with you.
    Chairwoman Maloney. It is all right with me if it is all 
right with Mr. Cloud. Yes, you--the gentleman is----
    Mr. Meadows. Well----
    Chairwoman Maloney. The gentleman is recognized----
    Mr. Meadows. OK. Thank you.
    Chairwoman Maloney.--for your point of information.
    Mr. Meadows. I think under my questioning earlier I talked 
about Federal funding and I think it was taken in one context, 
not the other. And so I don't--I don't want any of our 
witnesses to perjure themselves.
    So, if they would just get with the committee to make sure 
that you make a full disclosure on Federal funding so it 
doesn't--I think you were answering what I intended the 
question to be.
    But I know a number of you get Federal funding, and so you 
may want to clarify that with the committee.
    I yield back.
    Chairwoman Maloney. I thank the gentleman.
    Mr. Cloud is recognized for five minutes.
    Mr. Cloud. Thank you, Chairwoman, Ranking Member, for 
holding this hearing. It is a good for us to start off this 
year on a topic that is very important to our oversight duties.
    It is a key function of our republic, a republic of the 
people, by the people, for the people of having representative 
government.
    And I appreciate the fact that everybody here is unanimous 
in the understanding that it is vitally important that we count 
every individual and that we do our due diligence to make sure 
that happens.
    Mr. Moore, I really--you know, I come from Texas and, of 
course, I think 191 of our 254 counties is rural. The vast 
majority of my district is rural including, you know, a little 
town like Taft where the population is about 2,918 people and I 
had the privilege of visiting there the other day.
    I appreciate all the efforts that you have done, the 
creative ways that you have come up with, talking about potluck 
dinners on Wednesday and I would just ask that if you could 
invite us to one of those potluck dinners I would appreciate 
it. That is good home cooking. So----
    [Laughter.]
    Mr. Moore. We would love to.
    Mr. Cloud. I wanted to ask Mr. Morial, do you have anything 
to add to creative ideas what you, your organization, may be 
doing to help reach rural counties and maybe some of the 
differences in the challenges versus urban counties?
    Mr. Morial. So, there is a substantial segment of the 
African-American population in the United States that is rural. 
It is not completely urban. There is a substantial part that is 
suburban.
    In fact, there are probably more African Americans living 
in suburban America today than in urban America today. There 
has been a dramatic shift.
    We have convened some 60 organizations under the banner of 
the Black Census Roundtable and through those efforts and they 
include people that reach urban communities, a number of civil 
rights organizations have extensive networks in rural 
communities.
    So, we are using this community-based activation strategy 
to publicly educate about the importance of the census, what 
the purpose of the census is for, why the census is a right for 
people to participate and----
    Mr. Cloud. Do you have--I am sorry, moving along on time.
    Mr. Morial. Yes, well----
    Mr. Cloud. Do you have any little practical nuggets like 
Mr. Moore had on--you know, he was talking about coloring pages 
in education schools and----
    Mr. Morial. I endorse all--I mean, all of the above. I 
think what Mr. Moore has been able to do is to identify when a 
local government puts its money and its resources behind the 
census what is essential to making the census work is the work 
of local governments, states, cities, counties, economic 
development agencies, and school districts and the like.
    You know, in our instance we are encouraging our local 
affiliates to participate in these local efforts, in these 
local Complete Count Committees----
    Mr. Cloud. Thanks.
    Mr. Morial [continuing]. In an effort to do that. So,----
    Mr. Cloud. If I can move on. I appreciate your thoughts.
    Mr. Yang, you mentioned the constitutional responsibility 
of what the Constitution asks and you mentioned that anything 
beyond that that would deter from that mandate that we 
shouldn't ask. Is that fair? What does the Constitution require 
us to ask?
    Mr. Yang. Well, the Constitution requires us to assess a 
fair and accurate count of all persons in the United States 
and----
    Mr. Cloud. That is to count each individual, right?
    Mr. Yang. All----
    Mr. Cloud. Mr. Vargas, you agreed with that as well, right?
    Mr. Vargas. Yes, I do. In fact, the Constitution only 
requires an enumeration of the population.
    Mr. Cloud. Right. So, it doesn't----
    Mr. Vargas. It doesn't require that we ask name, gender, 
race, or ethnicity. All it asks is for a head count.
    Mr. Cloud. Exactly. Yes. It doesn't require to ask race, 
housing status, sex, relationship status, any of those things, 
right?
    So, would you endorse--not for this one, obviously, it is a 
little too late in the game--but going forward, consideration 
of a census that just counted what the Constitution required?
    Mr. Vargas. There would have to be a conversation about 
what then is the role that the American community is serving, 
because the data collected by the Census Bureau, that it goes 
beyond just a head count is used by all of U.S. policymakers to 
determine how to administer policies in the United States. You 
need to know how many people are children.
    You need to know how many people are men and women. You 
need to know how many people have different levels of 
education. How you collect those data will depend on what 
surveys the Census Bureau uses.
    Mr. Cloud. Right.
    Mr. Vargas. So, it will be a determination for what purpose 
is the decennial census and what is the purpose of the American 
Community Survey and other surveys.
    Mr. Cloud. There has been a lot of talk about 
disinformation and, Mr. Vargas, you said something that 
troubled me.
    You characterized the administration as being anti-
immigrant, having a campaign against immigrants. And I think 
part of this information--disinformation has--you know, we 
cannot be conflating the vital need to secure the border and to 
mitigate what the cartels are doing in our Nation and 
communities like mine against an immigration policy.
    Because the truth is--and I ask to submit this for the 
record: the Hill article ``Deportations Lower Under Trump 
Administration Than Obama,'' and the truth is they were lower 
under Bush than Clinton. And so if we could stop the rhetoric I 
think it would go really far to dissuading the fear that we see 
often.
    There is one underserved group that--I think, Mr. Morial, 
if you could speak to. We are two years out of Harvey and we 
still have a number of displaced individuals. We have housing 
that is still being built and people can't come back to 
communities.
    Do you have a way to deal with that? Do you have any 
suggestions for that? Or Mr. Moore?
    Mr. Moore. We have had similar issues in southwest Georgia. 
Hurricane Michael hit the Panhandle and hit south Georgia and 
we still have several of our communities that don't have 
residents back in their homes.
    So, we are working with all those communities to come up 
with a plan to identify where they are staying. It could be 
with a friend, a relative, or somewhere else. But we are 
definitely trying to make sure that we count those displaced 
families.
    Mr. Cloud. How do you do that? Do you have any--we can talk 
offline, I guess, and get some ideas.
    Mr. Moore. We can, but a lot of it is local. Like I said, 
every community is different. Everything is local.
    Mr. Cloud. Right.
    Mr. Moore. But working through churches, working through 
schools, working through different organizations that may know 
of someone that has been displaced and making sure that they 
don't fall through the cracks.
    Mr. Cloud. Appreciate it. Thank you.
    Mr. Morial. I will add this. I think, just reflecting on 
after Hurricane Katrina, the Census Bureau made special efforts 
like in instances where they make special efforts to count 
homeless people. They send enumerators to where people are.
    And so it is important that the Census Bureau work with in 
those areas where people have been displaced, whether it is in 
Texas or it is in Puerto Rico or anywhere where we have had 
hurricanes or fires that they work with local officials.
    Those local officials know where the displaced citizens 
are--the displaced people are and send enumerators to those 
areas. The only way they are going to be counted is through the 
use of enumerators if they are not at the customary physical 
address where they are.
    So, it requires a special effort by the census and we are a 
sophisticated knowledgeable society. We know where these events 
have taken place. We have a sense of where displaced people may 
be to some extent and so it requires a special effort.
    Again, I encourage you all to talk to the Census Bureau--
the census director--about that when he comes here in a few 
weeks.
    Chairwoman Maloney. The gentleman's time has expired.
    I now yield, at his request, to Mr. Meadows, briefly, out 
of order to further clarify his point of clarification.
    Mr. Meadows. So, I want to come back to all of you because 
my question was not a ``gotcha'' question and I think you all 
answered it, trying to answer it earnestly.
    When I was talking about Federal funding I was talking 
about actually Federal--because some of you receive Federal 
funding. We know that.
    So, my question would have been accurately do any of you 
receive Federal funding directly or indirectly that supports 
your census work and that way you can answer in the negative as 
you did or at least that is--answer truthfully. So,----
    Ms. Gupta. The Leadership Conference does not.
    Mr. Yang. Advancing Justice, AAJC, receives no Federal 
funding.
    Mr. Vargas. NALEO Educational Fund does not receive one 
cent of the Federal Government.
    Mr. Allis. National Congress of American Indians doesn't 
receive Federal funding for census work.
    Mr. Morial. We do not receive Federal funding for census 
work.
    Mr. Moore. No, sir.
    Mr. Meadows. I thank the chairwoman for allowing us to 
clarify that. Thank you.
    Chairwoman Maloney. OK. I now yield to Mr. Rouda of 
California five minutes for questioning.
    Mr. Rouda. Thank you, Chairwoman, and thanks to all of you 
for attending today on this very important topic.
    Clearly, a proper census count is a rural issue, a suburban 
issue, and an urban issue. It is a U.S. issue. We want to make 
sure that we count everyone.
    I am Representative Rouda. I am from California, Orange 
County, California, the 48th District, and in the 48th District 
we have an area affectionately known as Little Saigon, which 
includes parts of Westminster, Santa Ana, and Garden Grove, and 
it is a community that is--I think is an example of hard-to-
count places.
    And so what I really want to talk about with all of you is 
the goal of having partnership specialists helping out with the 
Census Bureau's efforts to make sure that we do get an accurate 
count in all communities.
    These partnership specialists tend to be trusted local 
voices who serve as critical liaisons between the Census Bureau 
and the local communities.
    Yet, the Census Bureau has reportedly failed to meet its 
own deadlines for hiring partnership specialists, raising 
questions about the effectiveness of this program.
    Ms. Gupta, can you explain why partnership specialists are 
so important in increasing census participation in hard-to-
count communities?
    Ms. Gupta. Well, the partnership specialists really are 
reflective of the local communities. They are often made up of 
people from local communities who are going to be much more 
trusted messengers as well as door knockers than anyone from 
the Federal Government or the Bureau if they have to self-
identify that way.
    And so the partnership program the Bureau has historically 
relied on its ability to hire and to have a robust partnership 
program for that reason and I would say particularly now, 
because of, I think, escalated fears and, like, not only of the 
citizenship question but the climate for immigrants in this 
country right now and that feelings vis-a-vis the Federal 
Government that it is more important than ever that there are 
full hiring--that full hiring is done and that we have got 
those partners in every community, in places like Little 
Saigon----
    Mr. Rouda. Right.
    Ms. Gupta [continuing]. Where there will be language 
barriers as well.
    Mr. Rouda. Could you elaborate, too? Because some people 
would suggest that the advertising campaigns that we do and 
websites that provide significant information suffice.
    Yet, I think you would recognize and agree that we need 
more because these partnership specialists provide a role that 
those don't.
    Can you elaborate on that a little bit?
    Ms. Gupta. Yes. The partnership specialists are doing much 
more than just providing public education. They are actually in 
community, often should be also trained in language, and my 
colleague, John Yang, I think could speak very directly to some 
of the challenges that folks in Little Saigon will face without 
a robust partnership program.
    But they are much more engaged at the local level kind of 
interfacing with members of the community in a way that no 
amount of media or communications. It is all vital but it is 
not going to have the same reach.
    Mr. Rouda. So, we know that these partnership specialists 
play an incredibly important role in making sure that we get an 
accurate census count and the Census Bureau was supposed to 
have 1,500 partnership specialists hired by June 30, 2019. They 
missed it.
    They set a revised target to hire these specialists by 
September 1, 2019, and our understanding from the GAO is that 
they missed that again in December.
    Mr. Vargas, what concerns do you have about the delay in 
the hiring of these partnership specialists?
    Mr. Vargas. My major concern is that there will not be 
sufficient time to make sure that these specialists are 
adequately trained to do the job that needs to be done now.
    The Census Bureau's media campaign is beginning in January, 
just in days. We need specialists on the ground not just hired 
but to know what is going on, and one of the challenges we have 
had is that we have encountered partnership specialists that 
are not well informed themselves about the census operations.
    And if I could use this opportunity to make a 
recommendation to the Congressman from Texas who is from a 
rural community, sir.
    My advice would be that you should look at where in your 
district will people not receive mailings, because many rural 
communities will not get any mail. They will be hand delivered 
the census form through an operation called Update Enumerate--
Update Leave, excuse me.
    So, what my recommendation is that everybody needs to 
understand what the operations the Census Bureau will conduct 
in your districts because not everybody will get mail, and 
specialists need to be informed about that.
    So, my concern is that not only are we behind in the hiring 
but there is not enough time to make sure they are fully 
trained so that they are accurately informing the community 
about census processes.
    Mr. Rouda. So, to say that in another way, we want to make 
sure not only do we hire those that we have committed to hire 
in a timely manner, to make sure they have the appropriate 
skill set but equally important that they have the proper 
training so they can do their job. Is that correct?
    Mr. Vargas. Correct. That is absolutely correct.
    Mr. Rouda. Great. Thank you very much and I yield back, 
Madam Chair.
    Chairwoman Maloney. I now yield to Mr. Cloud for a 
unanimous consent request.
    Mr. Cloud. Thank you, Chairwoman, and thank you, Mr. 
Vargas, for your--for your thoughts.
    I ask unanimous consent to put into the record an article 
from the Hill, ``Deportations Lower Under Trump Administration 
Than Obama.''
    Chairwoman Maloney. Without objection, so ordered.
    Mr. Cloud. Thank you.
    Chairwoman Maloney. I now recognize Mrs. Miller of West 
Virginia.
    Mrs. Miller. Thank you, Chairwoman Maloney and Ranking 
Member Jordan, and thank you all for being here today.
    I have heard a lot about what constitute hard-to-count 
population and so I would like to offer to you a different 
perspective from my state, West Virginia.
    It is extremely rural and it is filled with beautiful hills 
and hollers that contain many small communities, individual 
homesteads, and places where families have proudly lived for 
generations.
    Navigating the state, reaching out to these communities, 
often multiple times and ensuring that every individual is 
counted in the right place is no easy feat.
    Behind me displayed is a map of my district. Four of the 18 
counties in my district have 100 percent of the population 
living in hard-to-count neighborhoods.
    I spent last year visiting each one of these counties and I 
can tell you from firsthand experience how rural the 
communities are.
    Furthermore, an additional five counties have over 60 
percent of the population living in hard-to-count 
neighborhoods. That is half.
    Many of these counties also had lower percentages of those 
who mailed back their census forms in 2010 and required a 
costly in-person followup.
    It is important that this committee considers how to 
address hard-to-count populations as we do take rural 
communities into account.
    Mr. Moore, I have enjoyed listening to your testimony today 
because you have so many good ideas about how to engage the 
rural communities.
    One thought I had is we have a lot of food pantries as well 
as mobile food pantries all over our states and I think that 
might be a good way as well to spread the news about the 
census.
    We also have mobile mammograms that go around. Are there 
any unique ways that you have found to success in reaching 
these folks?
    Mr. Moore. I think both of those would be good. And, again, 
I am not familiar with your district or your state so I don't 
know why they would be classified as hard to count. But----
    Mrs. Miller. The mountains.
    [Laughter.]
    Mr. Moore. I understand that geography.
    Colquitt County--I mentioned a little bit about the success 
we had and I never thought we had a homeless population but we 
do.
    So, in 2010, we had a soup kitchen that feeds people every 
Wednesday night and we made it available for people to 
participate in the census there. I mentioned churches before.
    Mrs. Miller. Yes, it is wonderful.
    Mr. Moore. Schools, and several of our panelists have said 
that when we were doing our focus groups we asked people where 
they got their news, where they got their information, who they 
trusted and who were their trusted sources, and many of them 
came back to their pastors if they went to church, and their 
teachers or other guidance counselors. So, I would use both of 
those as options to do--try to get outreach.
    But, again, every community is different. What works in one 
community will not work in the other. That is why it is 
critical that you have a diverse Complete Count Committee.
    Somebody had mentioned earlier that a lot of times 
government takes the lead, and that is true. But we have got 
very successful counties where it may be Family Connections, 
which is a nonprofit kind of a community organization----
    Mrs. Miller. Family resource centers.
    Mr. Moore [continuing]. Because they work with a lot of 
your hard-to-count populations. They deal with them on a daily 
basis.
    So, I think that is my perspective. It may be a little bit 
different than others by working with the Chamber and with the 
Development Authority for so many years and working with 
committees is what works in one community doesn't work in the 
other.
    So, you got to come up with ideas, suggestions, best 
practices, and plans to help them put together a plan that 
would work well for them.
    Mrs. Miller. Well, much of my district, because of the 
hills, the mountains, the geography, we are without the 
internet and, you know, since this is the first time people can 
respond online, how have you addressed the lack of being in----
    Mr. Moore. We have got a lot of rural south Georgia 
counties that don't have adequate internet. There is two 
things.
    One is if you are in an area that doesn't have the internet 
that first letter should have a written form that they can fill 
out, and the fifth letter will also have a written form that 
they can fill out.
    And then trying to promote, you know, Spring Flings, May 
Day parades, football games, anything where you have got a lot 
of people.
    Set up tents, promote it, have educational opportunities 
for them to tell them what it is, what it isn't, and encourage 
them to fill out the census while they are there.
    We had mentioned libraries and others have, too. The state 
of Georgia allocated a million dollars to our public libraries 
to put in computers, put in TVs, promotional materials to 
promote the census because many of our south Georgia citizens 
that don't have internet available at home go to the library.
    Mrs. Miller. So, do the homeless as well.
    Mr. Moore. They do, and that is another great point. But 
your food banks, soup kitchens, churches, just anything. And I 
have had people say that is only 50 people.
    If you have got somebody that has influence over 50 people 
they need to be engaged in your committee because you want to 
count everybody that you can. I would hate to know that I 
missed people in any county.
    Mrs. Miller. And I like your trusted sources. That sounds--
--
    Thank you. I yield back.
    Chairwoman Maloney. Thank you. I just want to comment.
    Mr. Moore, you brought a lot of information about rural 
America and how to address it and the theme of libraries. I 
represent an urban area but we are using our libraries as a 
center for the homeless, for other people who don't have 
internet, to have people there to help them.
    That is a real resource that we need to build on in our 
rural communities. I want to thank you for your bringing that 
information to us.
    I now recognize Ms. Kelly of Illinois for questions for 
five minutes.
    Ms. Kelly. Thank you all for being here and thank you for 
your patience. I know important the census is. Illinois has 
lost a congressperson I think every decade for five decades and 
it looks like we are going to lose another one, and if people 
don't fill out the census we might lose two.
    So, I and my office we have taken it upon ourselves--we do 
census briefings all over. My district is urban, suburban, and 
rural.
    In the rural part of my district 40 percent of my 
constituents don't have access to the internet. So, we will be 
using the library.
    Also in my district there is a lot of concern about the 
citizenship question from my--in particular, my LatinX 
population because they have talked to us about it a lot.
    But what I wanted to talk about is actually the Census 
Bureau itself because people are concerned about their privacy.
    And in October 2019, GAO issued a report about 2020 census 
operations and the report found that as of August 2019 many of 
the census's technology systems were at risk of missing 
critical deadlines ahead of Census Day.
    The report stated that, and I quote, ``At-risk systems add 
uncertainty to a highly compressed timeframe for completing 
system development and testing work over the next seven 
months.''
    Ms. Gupta, is the Bureau ensuring that there is enough time 
to adequately test all of the new systems and what concerns do 
you have about it?
    Ms. Gupta. Thank you, Congresswoman.
    So, as some of my colleagues have already said, this census 
cycle we are reaching this with fewer end-to-end tests than 
ever--than in the 2010.
    There has only really been one end-to-end test and that 
then gives us a lot less data and gives the Bureau a lot less 
data about how to shore up IT.
    Obviously, technology is hugely important to reaching more 
people. But it brings cybersecurity threats whether they are 
real or perceived and that can chill participation as well and 
the Bureau has to do everything with private Federal and state 
partners to ensure security.
    We have been pushing the Bureau to take necessary steps to 
address how new IT and automated systems are going to affect 
the communities that they are most likely to miss. We know as 
we--as we said through the community map that we have worked on 
in partnership where all the hard-to-count--hardest-to-count 
communities are.
    The Bureau has--I think should update Congress when it 
appears before it on February 12 on the status of all of these 
activities and show that it is spending resources in the manner 
that Congress has directed and, further, I think, should press 
the Bureau to ensure that its IT systems are secure.
    And, I mean, I can add just, again, a couple of details. 
People need to understand also through the partnership program 
and public education work that the Bureau does about the 
internet self-response portal and, you know, kind of understand 
the process more. It is all of a piece for making sure that 
cybersecurity is strong.
    Ms. Kelly. Does anyone else want to add anything about 
concerns?
    [No response.]
    Ms. Kelly. Mr. Yang, can you briefly explain the legal 
protections that protect census data?
    Mr. Yang. Sure. So, under Title 13 of the Census Act, 
nobody is allowed to provide any individualized data coming 
from the census form and that is subject to a penalty, if I 
remember right, of $500 and six months in jail.
    Mr. Vargas. Two hundred and fifty.
    Mr. Yang. Two hundred and fifty. Five months in jail.
    Mr. Vargas. Five years.
    Mr. Yang. Five years in jail. Sorry about that.
    So, and we will say this. I think all of us, our 
experiences with the Census Bureau staff, the line level 
people, they take that protection seriously and that is part of 
what Mr. Vargas has talked about in terms of the Census Bureau 
being a trusted messenger of sorts that we rely on.
    So, those protections are absolutely in place and that is 
something we do need to emphasize to our community and protect 
from any misinformation with respect to that.
    Ms. Kelly. If there is one thing that you would tell the 
Census Bureau or us what could be done better, what would it 
be, starting--just go down the line.
    Ms. Gupta. Broadly?
    Ms. Kelly. Yes.
    Ms. Gupta. OK. Well, we have pushed very hard and 
appreciated Congress's bipartisan leadership in getting the 
funding levels that they needed.
    We are gravely concerned about how they are actually using 
and allocating in real time because the census is about to 
start days away in Alaska on all of the various programs that 
we know and kind of strategies to address the risks that the 
census is facing that is--it is a census that is about whether 
they are hiring at a fast enough pace for partnership programs, 
what their plan is with their communications and ads program, 
IT security, cybersecurity, and the like.
    You have heard many of us address these issues and we are--
I think you have to put this and ask about all of these 
questions because they have--they have funding now to do 
everything that they need to do, we believe, in order to ensure 
that everyone is counted.
    Ms. Kelly. Just because everyone else has gone over, but 
anybody else have two cents? Quickly.
    Mr. Yang. I would say, broadly, transparency. We know that 
there are gaps. If they let us know what the gaps are, 
realistically, all of us can help to fill those gaps. But we 
need to know what that is.
    Ms. Kelly. And end it with you, Mr. Moore.
    Mr. Moore. Congresswoman Kelly, thank you.
    Talking about the security as secure for 72 years, but one 
thing that has been effective when I have talked to small 
groups and communities, if you look at the questions there is 
really nothing on there that is not extremely personal 
information. You have got your name. You have got your address.
    But there is no bank account information. There are no 
Social Security numbers. There is nothing like that. So, 
security is a big issue and that is something that you have got 
to address with people.
    But I think once you actually run through the questions 
that are actually on the form they might feel a little bit 
better about it because I think there is a misconception that 
they are going to hack the census data base and they are going 
to have all of your personal information and drain your bank 
account and ruin your credit and all of this other stuff and 
that is just not the case with the data that is collected.
    Ms. Kelly. Thank you. I yield back.
    Chairwoman Maloney. Thank you very much.
    And Mr. Higgins of Louisiana is recognized for five minutes 
for questions.
    Mr. Higgins. Thank you, Madam Chair, and I thank the 
panelists for appearing today.
    I serve a district in south Louisiana, Third District, 
where 24 percent of my constituents were considered hard to 
count in the last census.
    Mayor Morial, thank you for being here.
    Mr. Morial. Thank you.
    Mr. Higgins. My fellow Louisiana citizen. My dad was 
friends with Dutch and he always----
    Mr. Morial. Go LSU.
    Mr. Higgins [continuing]. Always spoke well of your family.
    Mr. Morial. Thank you.
    Mr. Higgins. We are going to be moving a little fast here 
and I assure the panelists that I am moving in a positive 
direction, I believe, for the purpose of our hearing.
    I am going to ask you to answer a couple of questions by 
yes or no. Let me clarify that I support a totally accurate 
count regarding our census. It is crucial for our 
representative republic. I support door-to-door, direct mail, 
and online census data collection and I believe it is the 
responsibility of all of us to determine what is the best way 
to have a 100 percent accurate count.
    However, I think we have some realities to face. So, that I 
will know who to ask a pending question to, by a show of hands 
have any of you ever worked or the Census Bureau on the street, 
collecting census data door to door?
    Let the record reflect that no panelist member raised their 
hand, Madam Chair.
    My next question, by yes or no, please----
    Ms. Plaskett. I have.
    [Laughter.]
    Ms. Plaskett. I was sleeping when you were talking but I 
have.
    Mr. Higgins. Thank you for your service, to my colleague.
    [Laughter.]
    Mr. Higgins. My second question, yes or no, and this is not 
a ``gotcha'' question. I just ask for a genuine answer. Do you 
recognize that some communities and some demographic groups are 
more closed culturally and just--and just by tradition hesitant 
to interact with those outside of their community? Yes or no.
    Ms. Gupta?
    Ms. Gupta. Yes.
    Mr. Higgins. Mr. Yang?
    Mr. Yang. Yes.
    Mr. Higgins. Mr. Vargas?
    Mr. Vargas. Yes.
    Mr. Higgins. Mr. Allis?
    Mr. Allis. Yes.
    Mr. Higgins. Mr. Morial?
    Mr. Morial. Yes.
    Mr. Higgins. Mr. Moore?
    Mr. Moore. Yes.
    Mr. Higgins. Madam Chair, let the record reflect that all 
the panelists responded yes.
    So, here is an interesting question regarding how we move 
forward to seek 100 percent--it should always be our goal, 
right? 100 percent accurate count.
    Do these American communities that have a cultural or 
traditional hesitancy to communicate in census collection data 
efforts--do they have the right to determine their own level of 
interaction with government or those outside of their 
community? Do they have that right?
    Ms. Gupta?
    Ms. Gupta. Yes.
    Mr. Higgins. Mr. Yang?
    Mr. Yang. Yes.
    Mr. Higgins. Mr. Vargas?
    Mr. Vargas. Yes.
    Mr. Higgins. Mr. Allis?
    Mr. Allis. Yes.
    Mr. Higgins. Mr. Mayor?
    Mr. Morial. I may not quite understand the question.
    Mr. Higgins. Does an American citizen that is a member of a 
community that has--that has a tradition of hesitancy to 
provide data to census researchers--do they have that right to 
resist staff?
    Mr. Morial. I would answer by saying they have a right. But 
I think people have a responsibility to participate----
    Mr. Higgins. Oh, we have a responsibility to do the 
outreach. Do they have to----
    Mr. Morial [continuing]. To participate in the census. They 
have a responsibility.
    Mr. Higgins. Mr. Moore?
    Mr. Moore. I think they have the right, but it is required 
by law that they participate.
    Mr. Higgins. But they have the right to resist, do they 
not? And it would be--it would be incumbent upon us to, through 
outreach and communication into these communities to encourage 
their participation and then to seek ultimately their census 
data----
    Mr. Moore. Yes, sir.
    Mr. Higgins [continuing]. But they have the right to 
resist.
    OK. Just so we are clear on that, because I was a patrolman 
on the street in 2010 and it was a common--one moment, ma'am--
it was a common call during the census collection of a 107 
POP--a suspicious person. There was a great hesitancy--this is 
in 2010. Sometimes we would get multiple calls a day on the 
same census worker.
    Now, since 2010, there has been an overwhelming number of 
scams and efforts to steal identity and money online via email, 
a telephone. It increased exponentially and has largely 
targeted the elderly.
    I believe this decade past will certainly influence a 
greater number of American communities and individual families 
and households to resist the efforts to collect their data and 
I think that there is a great deal of emphasis being placed on 
a citizenship question at the expense of overlooking the fact 
that we have--we have allowed it to manifest in our Nation, an 
environment that we encourage our citizens on a daily basis if 
you don't know the person calling you on your phone don't 
answer the phone.
    If you are not familiar with the emails coming to you, 
don't open an attachment. This has been made manifest over the 
last 10 years, and I think that as a nation we have to get 
our--we have to get our heads wrapped around this because I 
believe one of the largest demographics that will not be 
counted in this coming census is our elderly and those that 
feel--that feel under threat from scam or ID theft.
    So, if Madam Chair would allow any panelists--perhaps they 
could choose amongst themselves to respond to that observation.
    Chairwoman Maloney. The gentleman's time is up. Someone may 
respond if they would like to. I think he raises a relevant 
point, reaching out to the elderly. Is there anyone who would 
like to respond?
    Mr. Moore?
    Mr. Moore. I will, just briefly. In our focus groups and 
the information that we have received back, the elderly is 
generally a population that is more inclined to voluntarily 
respond to the census because they have done them before and 
they see it as their civic duty.
    I can't address your concerns about privacy and going 
online more but traditionally that has been one group that has 
had a higher response rate than other segments of the 
population.
    Chairwoman Maloney. Yes, Mr. Allis?
    Mr. Allis. If I may, Madam Chair.
    So, you speak to resistance, all right, and thank you for 
your service. I did almost 10 years on the streets of Baltimore 
City doing what you did.
    As Mr. Moore said earlier, one size doesn't fit all when 
you look at different areas and different districts, and why a 
people or a group of people may resist in one area may not be 
transferrable to the other.
    So, your suggestion, respectfully, that people have a right 
to resist and then follow it up with a security concern based 
on fraud on the internet and other locations and things in 
their--they run across in their daily lives is then 
transferrable to all these resisting communities as being a 
primary cause or suggesting that is dubious, at best.
    Indian Country resists, if it is a resistance, for a 
totally different reason which has nothing to do with anything 
that you spoke to.
    It has to do to a historical mistreatment of American 
Indians through a couple hundred years--periods when they 
weren't even allowed to vote or were citizens that covered two 
periods where they tried to--this country tried to terminate 
American Indian ancestry.
    OK. So, when you look at why we may be a little hesitant, 
it has nothing to do with that. It has more to do with properly 
communicating, educating, and connecting with the culture and 
tradition that exist on individual Indian reservations and 
understanding what that is.
    So, I have to say that in response to your suggestion to 
try to pigeonhole the panel, if you will, into recognizing 
certain things with a yes or no answer and then extrapolating 
some kind of----
    Mr. Higgins. I thank the gentleman.
    Chairwoman Maloney. The gentleman's time has expired.
    Mr. Higgins. I thank Madam Chair for her indulgence.
    Chairwoman Maloney. But very important issues were raised.
    Mr. Higgins. And I find it--I find it not shocking that a 
panelist would identify a Member of Congress as dubious. Most 
of America considers us all dubious.
    [Laughter.]
    Chairwoman Maloney. Thank you.
    Congresswoman Lawrence from Michigan is recognized for five 
minutes for questions.
    Mrs. Lawrence. I think the questions my colleague posed 
just gives us more of a drive and a responsibility to ensure 
that we educate, that we address the concerns, and that we are 
assuring that our outreach is one that is inclusive.
    As Members of Congress, I must ensure that all hard-to-
reach hard-to-count communities are included in this upcoming 
census.
    Unfortunately, the president's continued mention of the 
citizens question--citizenship question--has incorrectly 
sparked fear in a lot of the communities.
    Today, we have an opportunity to help correct that 
injustice. My home district is Detroit, a city notoriously 
undercounted in the census with a large minority population who 
speaks dozens of languages. It is critical that the Census 
Bureau take every step it can to ensure that the hard-to-reach 
populations in our communities are reached.
    After the 2010 census, the Census Bureau reported that it 
undercounted African Americans by two percent, Hispanics by 
1.5, and American Indians and Alaskans by five percent.
    According to the 2010 census, my district home is home to 
over 400,000 African Americans, 34,000 Hispanics, and 1,500 
American Indians, which equates to a district that is seriously 
at risk of being undercounted.
    If those undercount trends continue, my district will see 
hundreds if not thousands of individuals not counted in the 
2020 census.
    In addition to that, 10 percent of my district is born in 
another country. Our largest groups are residents from Eastern 
Europe, Iraq, Bangladesh, and then Mexico, India, and Yemen, 
and the list goes on.
    My home state of Michigan stands to lose $30 billion for 
infrastructure and we are already rated one of the worst in the 
country, and access to clean drinking water--you all know the 
story of Flint--health care, education, and more if the 2020 
census is not properly done.
    I am concerned that because the Census Bureau had fallen 
behind in the hiring for the 2020 census, it may not have the 
manpower it needs to conduct followup operations to ensure 
everyone in America fills out the census form.
    In November 2019, the independent Inspector General at the 
Department of Commerce raised concerns about hiring delays. The 
IG found that the Census Bureau information technology systems 
used failed several tests, and I quote, ``present a risk to 
successful completion of our census.''
    Ms. Gupta, do you have concerns about the pace of the 
census hiring today?
    Ms. Gupta. Yes, I do, and I think several of our panelists 
do for the very reason that you said, which is this program is 
actually vitally important to being able to secure an accurate 
count in some of the hardest-to-count communities.
    Mrs. Lawrence. In fact, the Census Bureau has acknowledged 
that it is way behind in hiring. Just this week, the Bureau 
issued a press release stating that the Census Bureau needs 
more applicants in all 50 states.
    Mr. Morial, do you believe that the Census Bureau is doing 
all it can to recruit and to hire enumerators and what else--
you know, the question that we should be asking here today as 
Members of Congress is what can we do, because we must act.
    Do you have recommendations? And give me your assessment of 
our hiring.
    Mr. Morial. Let me--let me thank you for your question and 
thank you for your focus, and let me just kind of--it is time 
to ring the alarm bell on the enumerator program.
    They are behind. There is no strategy to catch up. They 
have got to hire 500,000 people. Every hard-to-count community, 
whether it is in black, LatinX, American Indian, or Asian 
American, is overly reliant on the success of the enumerator 
program and what they need to do is hold emergency hiring 
fairs.
    Mrs. Lawrence. OK.
    Mr. Morial. They need to decouple their total reliance on 
an online hiring system. They need to do what anyone would do 
in an emergency and that is to say our processes have not--by 
utilizing our processes we have fallen behind and therefore we 
need to change.
    Wise people change, fools never. And if they continue along 
the course that they are going, they will not hire enough 
people and an undercount is preordained.
    Mrs. Lawrence. It is preordained.
    Mr. Morial. On No. 2----
    Mrs. Lawrence. I agree.
    Mr. Morial [continuing]. This Congress appropriated $90 
million for mobile questionnaire assistance centers. We have no 
information that they have stood up the implementation of that 
program.
    And to add to this, decisions made years ago to reduce the 
number of local partnership offices means that those 
partnership specialists, for which, once again, they are far 
behind in hiring, have a broader geographic area to cover.
    So, what they should do is they should go into some of 
these areas and set up emergency partnership offices.
    My point is as we sit here in early January with the 
questions--the first letters to go out in less than 60 days--we 
need to ring the alarm bell and demand that there be 
adjustments in their approach or the result is not going to be 
what we want.
    Mrs. Lawrence. Thank you.
    Chairwoman Maloney. Your time has expired.
    And Mr. Keller of Pennsylvania is recognized for five 
minutes.
    Mr. Keller. Thank you, Madam Chair.
    I just want to get into the census information. You know, 
we all know it is used for the boundaries of congressional 
districts as it has been since the beginning of our republic.
    I mean, that was--it was designed for that purpose, and now 
it is also used to distribute more than $600 billion per year 
in our communities. So, it is very important and I want to 
thank the panel for being here today to discuss this issue.
    Pennsylvania's 12th congressional District has many rural 
areas where the census would define hard-to-count populations. 
In fact, the town or the village I live in has a population of 
less than a thousand and, again, these areas would be defined 
as hard to reach by the census.
    Looking at this, I think it is important--you know, we look 
back on what we have been able to accomplish in 1969, putting a 
man on the moon and returning him safely to Earth, okay, and we 
can do that in 1969.
    We are in 2020, and I think that we need to look at it as 
essential that we put forward proven strategies and the use of 
that technology that we have been able to get over the years to 
ensure that the rural communities are properly counted in the 
2020 census. And, again, we know the mailings are set to begin 
in a few short months.
    So, I looked at what happened and some examples of what 
happened, Mr. Moore, with your work in Colquitt County, 
Georgia, prior to 2010 as an example of reaching hard-to-count 
communities.
    Are there things--what could you say more about your 
efforts and how those efforts might help other parts of the 
country count some of these areas that are hard to count 
using--and, again, I am going to say with the use of 
technology? Do you see that being a part of what we can do?
    Mr. Moore. Sorry. The use of technology--do you mean 
sharing information with other regions or----
    Mr. Keller. No, I----
    Mr. Moore [continuing]. What other communities can do?
    Mr. Keller. I mean the fact that with certain things we can 
pinpoint--and I will use an example. I mean, we all use GPS. 
So, we have incredible mapping to know where homes are, to know 
where people live.
    Mr. Moore. Sure.
    Mr. Keller. And I think that we should--you know, when we 
talk about hard to-hard-to-count populations, and most of it is 
people under five, you know, is what I have seen. But how can 
we use the technology to make sure we are reaching all the 
households?
    Mr. Moore. There is a lot of great data that is available. 
Historic information from the 2010 census, your internet 
connectivity, your coverage for current numbers.
    You also have a lot of different options. We had a program 
called LUCA, and forgive me. Everybody at the table probably 
knows what it is, but I can't remember what the acronym stands 
for.
    But we recorded every address in every county in Georgia, 
and Georgia had one of the highest participation rates, and 
that is critical because that determines where the mail is 
going to go and the ones that don't respond that gives you an 
address where the enumerators can go door to door.
    I would go back--you got a thousand-person community, I 
guess, that you were worried about, and I would----
    Mr. Keller. Well, not just that one. But that is just an 
example of what Rural PA-12 looks like.
    Mr. Moore. I would suggest that that community have their 
own Complete Count Committee or have a group because, again, 
they are going to be more familiar with where people 
congregate, where people go, who people trust, who the trusted 
voices are for different segments of the community and come up 
with a plan to make sure that everybody, again, is educated and 
aware of the census, why it is important, and they are 
motivated to respond when they get that first mailing in the 
mail instead of having to get somebody to drag them in to do 
it.
    You want to make it where they realize, again, how 
important it is and they voluntarily fill it out that first 
time they get a mailing.
    Your enumerators--the response rate when they go door to 
door is extremely low. So, our goal for everybody that we are 
dealing with is to try to have the highest percentage of people 
voluntarily fill out the census as possible.
    I know I probably didn't answer it directly because I am 
not familiar with the community. But I will be glad to share 
with you some suggestions or ideas that we have shared with the 
other communities and be glad to followup with you by phone or 
somebody from your community to try to help them out, too.
    Mr. Keller. I appreciate that, because what we are looking 
at doing is making sure we accurately count everybody, and I 
know--you know, we all--we all run for election and we seem to 
be able to find out where people are that vote and be able to 
mail them things and find all that.
    And I find it very shocking that we don't have a uniform 
system or we are not actually able to find it out when it comes 
to counting people that live in the United States.
    So, I think there are some things we could do. I just 
wondered, you know, more of that sharing--how do we get more of 
that shared best practice----
    Mr. Moore. Sure.
    Mr. Keller [continuing]. And that is exactly what I am 
going to call it, a best practice in parts of the country.
    Mr. Moore. That is exactly what it is. We have got a plan 
for our 41 counties. We have got a plan for our state and would 
be glad to share it. We have actually got--I mentioned our 41 
counties several times.
    We have got probably six to ten counties outside of our 
service area that we are supporting and we would be glad to 
assist or help with you doing it.
    Chairwoman Maloney. OK. The gentleman's time has expired. 
But he raises an important point. To get a list of best 
practices that we could use around the country would be 
something that we could try to get the Census Bureau to pull 
together for all of us, from the testimony of our panelists 
together and others. That is a very important point.
    Mr. Keller. I guess I would just ask, you know, the people 
at the table if you have shared best practices because you have 
all been very active. I would encourage you, if you haven't 
already done it, to look at what other people are doing to 
solve this and put together a best practice for doing it.
    Chairwoman Maloney. I think that is an excellent idea.
    The Chair recognizes from the great state of New York, Ms. 
Ocasio-Cortez.
    Ms. Ocasio-Cortez. Thank you, Madam Chairwoman, and thank 
you to all our witnesses for coming to offer testimony today.
    I know we have had several hearings on the census and some 
of you all have come and offered your expertise and we thank 
you for that.
    I think after the past year of so many developments going 
on, particularly when it comes to the question on documented 
status on the census, there is a lot of havoc and confusion 
that has been unleashed in the electorate, which we know has 
really created a lot of fear in communities around one of the 
most important constitutional operations that we have to--that 
we have to conduct.
    So, let us clarify some things. Ms. Gupta, will the 2020 
census ask people about their documented status or citizenship 
status?
    Ms. Gupta. It will not.
    Ms. Ocasio-Cortez. It will not. Is filling out the census 
safe?
    Ms. Gupta. It is safe and confidential.
    Ms. Ocasio-Cortez. Will--and on that confidentiality, will 
an individual's personal information be shared from the 2020 
census?
    Ms. Gupta. Federal law prohibits the sharing of census 
information with any other government agency.
    Ms. Ocasio-Cortez. So, it is illegal for any of your 
individual information to be shared by the census, correct?
    Ms. Gupta. That is right.
    Ms. Ocasio-Cortez. And what is--do we know how--how serious 
of a crime is it? Is it just kind of a misdemeanor or is it 
very serious?
    Ms. Gupta. It is very serious. The Federal law on this 
subject is very robust, in part because the consequences would 
be incredibly grave. But it would be very, very serious--a 
serious crime.
    Ms. Ocasio-Cortez. OK.
    So, let us talk a little bit about the potential outcome of 
not counting a community, right. So, let us say I wanted to 
manipulate people's ability to return the census or, rather, 
their willingness to return the census--kind of spook people 
out of it.
    Why would I, potentially, want to do something like that?
    Ms. Gupta. You may want to do it to encourage swaths of 
communities that are perceived to vote for one party or another 
to stay out of the census for political gain.
    You may want that to happen because you don't believe that 
certain segments of the community are deserving of the same 
social services as everyone else. But it is against the law and 
written to the Constitution that the duty of the Federal 
Government is to count every single person regardless of 
status.
    Ms. Ocasio-Cortez. So, there is a potential political 
motive as to why somebody would want to undercount certain 
communities in the census?
    Ms. Gupta. Yes. I would say that the citizenship litigation 
and the Supreme Court found that even just the kind of impetus 
and motive for adding that question was motivated by partisan 
gain and Dr. Thomas Hofeller's memos that were discovered in 
the course of that litigation unfortunately reveal that there 
was an effort to weaponize the census for partisan gain when, 
in fact, it should be a core government institution and 
function that is free from politics.
    Ms. Ocasio-Cortez. So, we have seen that there is a 
documented paper trail here that the desire to scare our 
immigrant communities out of answering the census is to help 
and add a political gain to the Trump administration and, 
potentially, partisan--along partisan lines, correct?
    Ms. Gupta. I will say that, unfortunately, we have some 
pretty concrete evidence of that being the case. Again, look no 
further than Thomas Hofeller's memo advocating for the addition 
of the citizenship question to be--to advantage non-Hispanic 
whites.
    Ms. Ocasio-Cortez. OK. And so let us see. Let me move on.
    Mr. Vargas, I understand your organization issued a report 
last may from the National Latino Commission on the Census.
    Mr. Vargas, what did this report find about trust in the 
government and this administration among likely census 
respondents in the Latino community?
    Mr. Vargas. That commission, which was bipartisan and 
chaired by a member of the Miami-Dade County Board of Education 
and the secretary of state of California, held five regional 
hearings throughout the country and heard testimony from 
community leaders that emphasize how just overall--not just 
among Latinos or immigrants, but overall in the American public 
there is a growing mistrust of institutions, of contact with 
government, of submitting information online.
    These are all challenges that the Census Bureau understands 
that they are facing and are working to overcome, which is why 
the resources that they have needed for their communications 
campaign is so essential.
    Ms. Ocasio-Cortez. Thank you.
    And Ms. Gupta, very quickly, let us talk about the stakes 
here. If we don't answer the census, would that impact our 
school funding--funding for schools?
    Ms. Gupta. Absolutely.
    Ms. Ocasio-Cortez. Does it impact funding for our roads?
    Ms. Gupta. Yes.
    Ms. Ocasio-Cortez. Does it impact resources for our 
communities?
    Ms. Gupta. Yes.
    Ms. Ocasio-Cortez. So, our kids--if we don't answer the 
census our kids will not be able to have textbooks, teachers in 
the ratios that they need, schools that are being built.
    We also have one of the--I represent one of the most 
undercounted districts in the country but also represent one of 
the most overcrowded districts when it comes to schooling. 
That, I am sure, is connected as well, correct?
    Ms. Gupta. Yes. I mean, there are broad implications for 
how kids--how many teachers to students there are in any school 
district, health care, hospitals, roads, infrastructure.
    It has a very real impact on real actual living communities 
when they are--when people are rendered invisible or not 
counted in the census.
    Ms. Ocasio-Cortez. Thank you very much.
    Chairwoman Maloney. Thank you.
    Our next questioner will be Congressman Armstrong from the 
great state of North Dakota.
    Mr. Armstrong. Thank you.
    So, rural communities aren't, I mean, monolithic. They 
are--I mean, they are very different. They are very diverse, 
and so I can't talk about Georgia with any particular degree of 
accuracy. But what I can do is talk about North Dakota both on 
and off the Native American reservations.
    Because outside of all the historical stuff, which I do 
agree with you, Mr. Allis, there are also some unique 
challenges because of the rural location of how we deal with 
this.
    I mean, the Census Bureau defines hard-to-count as hard-to-
locate, hard-to-interview, hard-to-contact, hard-to-persuade, 
and these are the biggest challenges in rural households.
    And when we talk rural community, Mr. Moore, I mean, there 
is a big distinction even from a rural town of 200 people 
versus all of the people who live around that town of 200 
people.
    So, what are--I mean, like, what is one of the biggest 
challenges when trying to count rural communities?
    Mr. Moore. Again, it is just the diversity of the community 
and trying to find sources where people congregate, they get 
their information, and have those trusted voices. Everybody on 
the panel has mentioned that. I mentioned it a little bit 
earlier.
    You may have people that you trust and would act on what 
they told you and they may not listen and they may not listen 
to Mr. Morial.
    So, having a diverse group that can address everybody in 
the community is going to have the greatest impact. And through 
our research and trying to find out what was effective and what 
was not effective, almost everybody responded to the ads that 
addressed how the census data impacted their family.
    They all respected how the census data impacted their 
children, and most of them said that they trusted teachers or 
guidance counselors. That was a trusted voice. They trusted 
their pastors.
    So, again, trying to find those trusted voices and then how 
to come up with a plan to get that information out well in 
advance of the census.
    Mr. Armstrong. And I think that is what I want to go to, 
too, because--and then I want to ask Mr. Allis how do we--how 
do we recruit more people from the enrolled tribe to work on 
this?
    Because I have done a lot of work on reservations in North 
Dakota and just the efficiency of having somebody from there 
doing it.
    We have a problem in North Dakota. We have 30,000 open 
jobs. We, effectively, have negative unemployment.
    So, when you bring somebody from outside of those rural 
areas to work, to do the census work, their efficiency will go 
down exponentially, let alone when you are dealing with 
frustration, skepticism, and dealing with those issues.
    Mr. Allis. So, Congressman, thank you for raising that.
    You know, there are a lot of challenges, and you are 
correct, the rural nature of where these Native communities 
are--makes it difficult.
    Mr. Armstrong. As simple as not having 911 addresses.
    Mr. Allis. And--well, and as simple as what we take for 
granted, having access to the internet. And when you look at--
--
    Mr. Armstrong. Or a landline or cell service.
    Mr. Allis. Nothing. Zero. And so when you look at your 
normal methods of communication, okay, let us just look at in a 
couple silos here.
    One, and you asked how do we get people--you know, 
enumerators get people there to, you know, interact and get 
counted and how do they come from Indian Country.
    Well, census's movement toward filling these positions 
through online networks has complicated the issue for us, has 
had a major impact on the number of people that have the 
ability to do that.
    So, we, you know, strongly suggest that you let us go back 
to the old paper way. As Mr. Morial mentioned, it is crunch 
time. All right.
    When the Congressman earlier was speaking about hirings and 
the specialists, they start in Alaska in two weeks and there 
are no Native Alaskans as partnership specialists. Zero.
    Zero, at this point. OK. Which is very shocking and 
alarming, and in part because of the enormous hurdles it is now 
to end the wait time and how long it takes to become badged, an 
employee with the U.S. Census Bureau.
    So, we really need to consider that. That is a--that is an 
additional pile-on in addition to all the stuff you and I 
already know about this community.
    Mr. Armstrong. Then that would be my question for Mr. Moore 
and then maybe you can weigh in, too. Have we ever looked at, 
like, the number of census workers per citizen in rural areas 
versus in urban areas?
    I mean, the efficiency is just significantly decreased when 
you have to drive 60 miles between residents.
    Mr. Moore. I know just from speaking from my perspective in 
the communities that I am familiar with, we talked about the 
partnership specialists and they are all great people but they 
are stretched thin, and that is not the only solution for me.
    I think they are there to give guidance, best practices, 
try to help the committees get together and be there on a more 
frequent basis. But if you are going to follow that model you 
definitely need more people serving a smaller geographic area.
    Mr. Armstrong. And I will close with this. I think we take 
for granted 911 addresses, GPS locations, cell service, 
internet, landlines.
    And I can tell you, in rural areas in North Dakota none of 
those things exist in certain places and they are more 
exacerbated than even in our traditional rural areas on Native 
American reservations in North Dakota.
    So, thank you all very much.
    Chairwoman Maloney. Thank you for raising some interesting 
points.
    Ms. Tlaib from Michigan?
    Ms. Tlaib. Thank you, Madam Chair. Thank you all so much 
for being here.
    One of the things that I think we have been kind of 
distracted in understanding, I think, what it really means for 
us to just primarily do this initial round online and the 
really, I think, crisis that we have right now when it comes to 
the census is the fact that it has to rely on access to 
broadband internet.
    And it is not just my communities like in Wayne County. It 
is community rural America. There is so much, again, emphasis 
on investing only on having this all be online and in return 
they are saying if we are going to go online then we don't need 
that many folks on the ground. We don't need this many offices.
    Secretary Ross came before this committee and specifically 
said he was reducing these offices by 50 percent primarily 
because they were going online.
    Now, last census I believe it was one out of three did not 
return the responses in the initial round. Do you know one out 
of nine Americans don't have access to internet?
    And not only that, combine that with the fact that they are 
going to hire 125,000 less people--fewer people--to actually 
try to get people counted.
    All that combined, I think--for me when we think about the 
communities that we are talking about here and the undercounted 
communities, I think we are underestimating what this really 
means. The fact that this is the first time ever in the history 
of our country that we are going to go completely online, rely 
on that to be initial touch.
    Now, I know this, and I would ask my colleagues don't use 
the broadband internet in this chamber or at home, if you have 
it. Try to go fill out the census on your own when you don't 
have access to that.
    People need to understand it is, one, because some don't--
can't even afford the internet access. It is an affordability 
issue, not only even an access issue of it being available.
    So, I want to ask each and every single one of you all the 
critical importance of understanding what this is really going 
to mean, because resources are down 50 percent. They are going 
to hire less than, you know, hundreds of thousands of people on 
the ground.
    I am very fearful. I mean, the city of Detroit has its 
coalition of folks that meet all the time. They are trying to 
raise money with the private foundations and private folks.
    The Wayne County community that I represent all throughout 
the community, you know, our Wayne County executive, Warren 
Evans, is really taking the lead and saying we got to count 
everybody and I appreciate his leadership on that.
    But what is worrisome to me is unless I have folks with 
iPads at the bus stops or at--you know, outside of schools, 
trying to explain to folks, guess what, no one is coming 
knocking on your door. You are not going to get something in 
your mailbox. You have to--you have to go online and do it 
right there online.
    Now, the majority of my residents they use their phone. 
That is not going to work. Not only that, it is not safe and 
secure, period.
    So, I want to hear from every single one of you in regards 
to that because I don't want us to deter from this major change 
in how we are counting folks this year.
    Mr. Yang. If I could start. You made a very important 
distinction. It is not the first online census. It is the first 
census in which online responses are available.
    And so that is one thing we need to educate our community 
on is that that is not your only option. You can still get a 
written form. Or, by the fourth mailing, if you have not 
responded you will get a written form in the mail.
    Obviously, there is difficulties with rural addresses, et 
cetera. But that option is still available. Likewise, there is 
a 1-800 number that you can call to provide your responses.
    So, that is part of the education. Part of the education, 
certainly, for the Asian-American community is there is a 
reluctance to use the online even if it is available.
    That survey data that we did showed that paper form is 
still preferred in many of our communities. So, that is part of 
the education and, again, it is coordinating with the Census 
Bureau to make sure they understand that and they are starting 
to understand it more.
    Initially, they were touting how online internet responses 
would be wonderful and make everything more efficient.
    They have backtracked, to their credit, on some of that 
messaging. But we need to continue to emphasize how closely to 
tie all of that together.
    Mr. Vargas. I would invite Congress to actually pay close 
scrutiny to making sure that the Census Bureau actually has the 
load capacity to be able to intake, you know, millions of 
Americans going online all at once to try to provide their 
census information.
    I firmly believe that we need a Plan B and that the Census 
Bureau needs to make sure it has an adequate supply of paper 
forms at the ready should something happen and the computer 
load capacity not work, as we saw previously in health.gov.
    Ms. Gupta. I would just add to that. I really appreciate 
you bringing up the cost issues as well. It is accessibility.
    It is costly for individuals. Connection speeds vary. It is 
higher--higher speeds cost more money and we know which 
communities are--have access to higher connectivity and the 
like.
    You know, it is in part because of the shortages from the 
Bureau why it has been really important for us as advocates to 
make sure that cities and states are also kind of engaged in 
putting money toward this fight, that you have got Complete 
Count networks that are locally based and rooted, and we kind 
of, shockingly, have several states that still have not set up 
any Complete Count Committees.
    We have several states that have refused to put any dollars 
toward the census when we know of all of the kind of very 
unique challenges that the 2020 census is going to be facing.
    But there are--there has been significant, you know, 
places--to put a positive piece on this is that there has been 
a lot of cities and states and NGO's that have been really 
stepping up to deploy and make wifi centers available and 
devices available in public spaces for households to respond to 
the census.
    But we know that is not a kind of structural answer to some 
of the grave issues that you are talking about. And then we 
have talked a little bit about the cybersecurity concerns as 
well that we are all very mindful of and----
    Mr. Gomez.
    [Presiding.] Time has expired.
    Ms. Gupta. Yes.
    Ms. Tlaib. Chairman, if you don't mind, I would like to 
submit for the record an article titled ``The Census Could 
Undercount People Who Don't Have Internet Access'' by one of 
our FCC commissioners, please.
    Mr. Gomez. Without objection, so ordered.
    Ms. Tlaib. Thank you.
    Mr. Gomez. I recognize Ms. Porter of California for 
questions.
    Ms. Porter. Thank you.
    This committee has had a lot of discussion about how 
government programs are affected by an incomplete count. But I 
wanted to talk about how important a fair and accurate census 
is for a thriving private sector that creates opportunities for 
all.
    I am a proud capitalist but I want that capitalism to 
create opportunities for everybody and to do that we need an 
accurate count. An accurate count is a critical tool that helps 
businesses grow. It helps create jobs. It helps them serve all 
their communities.
    Mr. Chair, I would like to enter into the record a brief of 
businesses and business organizations that they filed in 
opposition to President Trump's census changes.
    Mr. Gomez. Without objection, so ordered.
    Ms. Porter. The companies and organizations that submitted 
this brief come from a wide variety of industries and regions 
with different sizes and approaches, for example, the Los 
Angeles Chamber of Commerce, Univision, Lyft, Ben and Jerry's, 
and Massimo Corporation, which is located in Orange County.
    And in this brief they say, quote, ``Without accurate 
census data on which to base location decisions, businesses 
would lose a tool that has become crucial to their survival and 
growth,'' unquote.
    They also said, quote, ``Mistakes about where to place a 
store, a warehouse, or other facility can harm not only a 
business's overall outlook but also the communities that need 
or don't need such a facility,'' end quote.
    It is not just about what is on our shelves, the risk of an 
inaccurate count. The National Association of Homebuilders uses 
census data to help provide housing market information, 
including the number of renters and home values.
    A fair and accurate census will help demonstrate the need 
for more housing in places like Orange County.
    Ms. Gupta, as a leader in this area, what partnership have 
you or could you develop with businesses to reach hard-to-count 
communities?
    Ms. Gupta. Several--the Leadership Conference and several 
organizations at this table have been working very closely with 
trying to get more corporate partners to be partners in helping 
to get out the count and we have seen a number of companies 
really step up for the very reasons that many of them 
articulated in their amicus brief to the U.S. Supreme Court 
about their concern about the citizenship question.
    They--companies understand the business case for an 
accurate census. They are very concerned about having any kind 
of undercount. They rely on it for marketing decisions, 
location decisions, and the like, as you mentioned.
    And so we have had some success at getting companies, big 
companies with huge footprints to get more engaged in this 
effort and to helping partners in getting out the count. You 
know, different companies are doing a range of different 
things, are using their platforms for marketing and 
advertising.
    They are using their platforms to get employees where they 
have thousands, tens of thousands, in some cases hundreds of 
thousands of employees. But we also will say that we need more 
companies to be engaged.
    I will just say, and I think you are hearing this from all 
of us, that this is an all-hands-on-deck moment, that as 
somebody said, you know, we have got to call, like, kind of 
shake the alarm right now because this is happening.
    We are not kind of approaching the census. We are days away 
from the count.
    Ms. Porter. And Mr. Vargas, have you tried to partner with 
the business community for outreach on the census and, if so, 
what feedback have you received?
    Mr. Vargas. We have actually engaged a number of businesses 
so that they could do several things. One is encourage their 
own employees to participate in the census and convince them to 
make sure that everybody in their spheres of influence and 
their networks also participate in the census but also to 
incorporate census messages as they reach out to their 
customers and their clients.
    It is an all-hands-on-deck, as Ms. Gupta mentioned, and 
businesses themselves can also be trusted messengers. So, if 
somebody has trust in that grocery store that they go to and 
that grocery store is providing census information, well, that 
is a good thing in terms of making sure that the information is 
getting out there.
    Ms. Porter. In my district I met with the Irvine Chamber of 
Commerce, who made clear to me how important an accurate count 
is for them, and they are putting their own resources toward 
what they call Project Census 2020 to help educate and inform 
the companies that are part of the Irvine Chamber of Commerce 
to do exactly this work and I would hope that we could make--
ask of the leaders of organizations like the Business 
Roundtable, which has recently said that they want to engage 
stakeholders at every level, to put some of their muscle behind 
this initiative.
    Ms. Gupta?
    Ms. Gupta. We are engaged with the Business Roundtable on 
this very question.
    Ms. Porter. Great.
    With my remaining time, I wanted to highlight something 
that has come to my attention in my district, which is the 
problem of--as a consumer protection advocate the problem of 
people taking advantage of this trusted brand that we try to 
build in the census to use it them to create scams.
    And so in my district people in other districts--people 
have been receiving things saying that they have been selected 
to participate in a census and then they have given a voter 
number and a deadline and questions that look very similar to 
the census but these are actually political tools.
    And so we have written to the Postmaster General. I have 
written to the attorney general of California. I have tried to 
shine a light on that and have not received yet, like, sort of 
helpful responses.
    I am going to followup on this with the census director 
when he comes. But I just want to flag for you the importance 
of also scam education as you are doing your outreach.
    My time has expired.
    Mr. Gomez. I would like to recognize Ms. Haaland from New 
Mexico for questions.
    Ms. Haaland. Thank you, Chairman.
    Thank you all so much for taking the time to be here and 
for your hard work on behalf of the underrepresented people in 
our country.
    Thank you for your persistence and integrity in the face of 
opposition for the higher purposes of equality and justice, 
which is what all of you are doing when you are doing this 
work.
    I need to mention something for the record because it was--
it was brought up--raised earlier by one of my colleagues, and 
what I would like to say is that this entire country was once 
Indian Country--this entire country--and Federal recognition is 
a process that has been established because of colonialism and 
for no other reason.
    So, regardless of whether an indigenous person is enrolled 
in a federally recognized tribe, there are tribes that have 
been denied that status by this government. It doesn't mean 
that they are not indigenous.
    They, in fact, are indigenous and they should answer the 
census in that way if that is how they identify. There are 
state-recognized tribes. There are tribes that don't--aren't 
state or federally recognized.
    However, they have a family history that says that they are 
indigenous to this continent and they should respond the way 
that their family history requires them and obligates them to.
    And so now on to some questions. The Census Bureau has had 
10 years to prepare for the 2020 census and to address the 
severe undercount of Native Americans in the last census.
    They know the vast majority of responses will have to be 
done by in-person enumerators on tribal lands. Keeping in mind 
that our state of New Mexico has, largely, Navajos, Pueblos, 
and Apaches and several large diverse urban Indian populations.
    Not only is the Census Bureau behind on hiring staff but it 
took congressional intervention in my home state of New Mexico 
to get the regional census office to order printed translation 
guides in the Navajo language. The Navajo population is the 
largest Indian population in my state.
    And not only that, but they have a language that is taught 
on Rosetta Stone, for example. I am directing this question to 
Mr. Allis but I encourage all of you to submit your answers in 
writing as it pertains to the communities you are working with.
    Mr. Allis, from your experience, do you believe that the 
Bureau officials understand the unique challenges for remote 
tribal nations and language needs, and if not, at this point 
what actions do you think the Bureau should prioritize to 
ensure a full count?
    And second, Mr. Allis, please give us an idea of just how 
important it is to count urban Indian populations.
    Mr. Allis. Thank you, Congresswoman, and two great 
questions. I do recognize that 78 percent of the Native 
American community in New Mexico, your state, is in a hard-to-
count area. Significant population.
    So, does the U.S. Census Bureau really understand our 
needs? That is a tough question to answer. I don't know if it 
is a yes or no answer or if it is fair.
    We work with them. It is important that we need to work 
with them and get along with them. They have taken strides to 
try to address some of our issues and some of our concerns that 
we have articulated through the years.
    However, and as Mr. Morial mentioned earlier, this is not a 
complaint about funding. Congress has done its job and properly 
funded. This is about the operational decisions that they have 
made.
    And when you look at some of the things that they have 
made, we do have to question whether they do fully understand 
the needs and the problems that exist and the hurdles by way 
of, for instance, how they are staffing their team and putting 
that together and also not necessarily communicating with any 
of us, you know, on the mobile questionnaire program--how is 
that going to work, who is going to do that, what is their 
vision for that.
    So, although they, you know, have identified the barriers, 
okay, taken the time to identify, self-identify what those 
barriers are--privacy concerns, trusted voices, language 
barriers, and a general lack of knowledge and proper 
messaging--it is questionable whether the operational decisions 
have gone to address those.
    How important is this to us? You know we are very unique. 
OK. We are a political group. We are a political body, and also 
what a lot of this country doesn't understand we are one of 
three sovereigns that is articulated in the U.S. Constitution: 
Federal Government, states, and tribal governments.
    And what is the lifeblood of any sovereign entity? It is 
tax base. OK. It is being able to get resources from its tax 
base. Well, we don't have that option. That doesn't exist.
    We don't have that lifeblood. Our lifeblood is the Federal 
funding for all--for education, economic development, 
infrastructure--that has been promised to us in treaties and 
trust responsibility and that funding is directly impacted by 
the census.
    And if that doesn't come off right and if we are not 
properly counted, our lifeblood is cut right off. And whether 
you are a tribal sovereign government, whether you are a state 
or Federal Government or whether you are a human being, you 
stop your lifeblood you die.
    And so that is how important it is and that is the really 
unique distinction that separates Indian Country from our other 
partners that I think people really need to understand.
    Mr. Gomez. Thank you so much. Time has expired.
    Now I would like to recognize Ms. Pressley of Massachusetts 
for questions.
    Ms. Pressley. Thank you, Mr. Chair.
    I represent the Massachusetts 7th and Boston makes up the 
bulk of my district, and out of the 100 largest cities in the 
country it is ninth in being hardest to count.
    It is a vibrant diverse dynamic district but one of the 
most unequal in the country and that is certainly true when it 
comes to health outcomes.
    And so census data is used to allocate hundreds of billions 
of dollars in Federal funding for health care programs. Most 
people aren't aware that that includes Medicaid and CHIP, the 
Children's Health Insurance Program.
    These programs provide coverage to millions of families 
working to make ends meet in the United States.
    Ms. Gupta, can you explain how census data determine 
Federal spending for Medicaid and CHIP?
    Ms. Gupta. Well, census data is the basis by which these 
really large Federal programs are going to be able to allocate 
dollars per person in districts.
    And so, literally, an undercount of people in your 
community will result in smaller block grants being given 
through these programs for kids to get the healthcare that they 
need.
    And, of course, we know also about health care disparities 
already so the consequences of an undercount in communities--
the health care consequences are going to be that much more 
dire.
    Ms. Pressley. And could you just elaborate a little bit 
more on that, Ms. Gupta, how would failing to count hard-to-
reach communities in the 2020 census further entrench already 
existing systemic barriers?
    Ms. Gupta. Well, there has been--there have been--there is 
a wealth of information showing the degree to which health care 
disparities hit low income communities, communities of color at 
a highly disproportionate rate.
    When you think about--if you are thinking about structural 
issues like the allocation of Federal dollars to support 
programs that are specifically targeted to address those gaps 
and close the chasm, if there is an undercount of those very 
communities it becomes a vicious cycle.
    An undercount of those very communities, the dollars that 
are allocated for the programs intended to reach them are then 
also diminished and reduced, and so it becomes a structural 
vicious cycle.
    Ms. Pressley. Thank you.
    And Mr. Vargas, what does this mean for LatinX communities 
which are already uninsured at disproportionately higher rates?
    Mr. Vargas. The irony is that when a community suffers an 
undercount, the services that are based on census data then are 
even delivered less so to those same communities.
    So, take the example of very young Latino children. They 
are the most frequently undercounted population in the country.
    Four hundred thousand very young Latino children ages zero 
to four were not counted in the 2010 census. So, all of the 
data--all of the programs that are designed to benefit very 
young children are off because the numbers are wrong, and if 
your numbers are wrong your decisions and your funding 
allocations are wrong.
    Ms. Pressley. Thank you, Mr. Vargas.
    And Mr. Morial, is it your opinion that this could 
disproportionately worsen health outcomes in the black 
community on issues like maternal mortality or other health 
disparities?
    Mr. Morial. All across the board. Every single health 
disparity would be exacerbated by an undercount because the 
list and the range of programs that rely on census data for the 
allocation of funds is long and deep.
    I think it is approximately $800 billion in the Federal 
budget is allocated based on the data collected in the census. 
So, it stands to reason whether it is Medicaid, Medicare, 
Children's Health Insurance Program, CBDG, Head Start--you 
could go down the line--it is so essential we have got to 
communicate that to our communities.
    But that is why we got a whole census accountable to do the 
right thing and make sure everyone is counted because the 
impact is political when it comes to reapportionment of every 
single office in the country for whom the people are elected by 
districts.
    The impact is economic because it affects $800 billion. The 
impact also goes beyond that because as the questioner--one of 
the members asked earlier, the entire framework for market-
based data used by the private sector, by the media companies, 
is based on census data.
    Our own state of Black America report is based entirely on 
census--in large part on census data.
    Ms. Pressley. Thank you, Mr. Morial. And with my remaining 
time, I don't know if any of you have thoughts, in 20 seconds, 
as to whether or not incarcerated men and women should be 
counted and included in the census according to the home 
communities they are from and not where they are being mostly 
warehoused.
    Mr. Morial. Yes, yes, and yes, and let me just say this. We 
had the Census Bureau on the brink of reversing this just 
before the 2016 election. The 2016 election impacted this.
    So, the Census Bureau was on the verge, because we had 
advocated for many, many years that they changed where those 
who are incarcerated are counted to their home districts, and 
it changed.
    So, the election impacted this. It is not fair--it is not 
appropriate to allow those counties where--that happened to 
house correctional facilities to get a disproportionate share 
of resources as well as political power because they just 
happened to be the place where incarcerated people are.
    This is an--and I urge--Congressman Clay has got a bill 
that would reverse this. Well, he is not here but his seat is 
there, and I think we need to make a priority to push that bill 
through the Congress so that this is not the case in the 2030 
census.
    Ms. Pressley. Thank you.
    Ms. Gupta. I was just going to say amen.
    Ms. Pressley. Thank you.
    Mr. Gomez. Thank you. I think time has expired or frozen in 
time. It was, like, 14 seconds for a minute.
    [Laughter.]
    Mr. Gomez. I would like to recognize Ms. Wasserman Shultz 
from Florida for questions.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    Recently--and welcome to our panelists. Thank you so much 
for being here and for your work every single day.
    Recently, the Census Bureau announced a paid media campaign 
that includes targeted hard-to-reach hard-to-count communities 
so that we can increase messaging around the census because 
that will, obviously, increase participation and make sure that 
more robust funding is available when we know how many people 
we have not been able to reach.
    This culturally sensitive advertising is particularly vital 
in a diverse district like mine, which includes Latin American 
migrants whose trust in government has been seriously eroded 
due to the Trump administration's attempt to propose a 
citizenship question.
    Specifically, I represent Broward and Miami-Dade Counties 
in south Florida, which are considered among the hardest-to-
count counties in my state, according to the City University of 
New York.
    So, there are, obviously, major concerns about gaps in 
media coverage in my own community and many places just like it 
around the country.
    If hard-to-count groups are not properly engaged on the 
importance and timeline for the census it could lead to a 
significant undercount and, for example, there is a question 
mark in Florida over whether or not we will have--we will add 
one seat or two seats to our congressional delegation, and this 
media campaign could make a very significant difference in 
whether it is one or two and then, you know, if you have more 
elected officials representing your state, more advocacy, more 
resources, to say nothing of the allocation with Federal and 
state formulas based on the census.
    So, Mr. Morial, it is good to see you. Really glad you are 
here. One of the things that I am concerned about is that there 
is likely a gap in the outreach budget that the administration 
has announced to count African Americans.
    What effects could a gap in media and communication 
advertising have in the black community?
    Mr. Morial. An undercount means that political 
representation is going to be affected and an undercount means 
that the allocation of Federal funds are going to be affected 
and it goes all the way down the line.
    It affects city council seats, county commission seats, 
justice of the peace seats in rural areas, not to mention 
members of the state legislature and Members of Congress and in 
the 40 states that elect judges.
    Some elect judges from districts. All of this could be 
affected by an undercount and it is a particular concern for 
African Americans, and I know other communities because our 
populations have grown and we want the census to capture the 
growth in our populations and that to be translated into the 
reapportionment process, that to be translated into the process 
in terms of how Federal funds are allocated.
    So, it is a grave issue. It is important that the count be 
complete and accurate.
    Ms. Wasserman Schultz. To be clear, specifically, like you 
said, the African-American population is growing. So, if there 
is an undercount, because of the way redistricting works, you 
have decisions made about where in a state or in a community a 
new district would be added.
    If you undercount the population that has grown, then that 
community is less likely to get representation they would have 
otherwise gotten had the community count been maximized.
    Mr. Morial. At the least the vote dilution and when you add 
that--add to that the fact that we don't have Section 5 for the 
southern states at this point in time, the risk is grave and 
that is why we are so--all of us, I think, here are united in 
saying to you, as the House Oversight Committee, the power is 
in your hands to hold census accountable and for them--Mr. 
Vargas talked about a Plan B. I talked about a state of 
emergency.
    Whatever is required between now and March, April, the 
Census Bureau has got to step up its game. It has got to fill 
in these gaps.
    It has got to respond to the concerns we have raised today. 
Or the risk for the Nation and the risk for our communities is 
grave.
    Ms. Wasserman Schultz. And as I heard you say earlier, 
specifically, having a media outreach campaign in between when 
the----
    Mr. Morial. Enumerators.
    Ms. Wasserman Schultz.--the enumerators begin going door to 
door so that there is awareness that they are coming, so that 
you have--I know when I go door to door in my district, if I 
send a mailing into that precinct announcing I am coming, the 
open rate of the door is more significant because they are less 
fearful and more----
    Mr. Morial. And we also can't let Census Bureau trick us 
because they have got these terms, nonresponse followup and 
primary. So, you know, advertising campaign has got to run all 
the way to the end.
    Ms. Wasserman Schultz. Right.
    Mr. Morial. Until the final day when people can fill out a 
form or respond to the census.
    Ms. Wasserman Schultz. Thank you so much.
    And in my last few seconds, Mr. Allis, I represent the 
Seminole tribe of Florida, and, clearly, Native Americans would 
be a population that is usually undercounted. A lack of trust, 
a lack of confidence in the official government of the United 
States.
    So, what kind of outreach are you aware of that has been 
included by the administration to make sure that there is not 
an undercount among Native Americans?
    Mr. Allis. Thank you, Congresswoman, for that question.
    As Congresswoman Haaland asked me to mention, you know, was 
the Census Bureau what it needed to do to connect with Indian 
Country, and over the course of the last 10 years they have 
self-identified barriers and hurdles and things that do need to 
be addressed, which includes language, which includes, you 
know, knowledge about why--what is the purpose of the census, 
how do you even fill the thing out--you know, all those kinds 
of things.
    Our concern is even though they have been properly funded, 
a lot of that stuff just hasn't happened correctly, okay, and 
their shift in the way they want to hire people and maneuver 
people around and set up, you know, their infrastructure 
doesn't align with addressing those particular----
    Ms. Wasserman Schultz. It is not about just throwing money 
at it.
    Mr. Allis. No, you talked about media outreach. We have a 
lot of issues there. You know, Alaska starts in two weeks they 
intended--the goal was that this media campaign would have 
started five months ago.
    It started in middle of December, and when it started in 
middle of December, there were mispronunciations of the 
villages and of the tribes and it was just not clean.
    And that is not connecting the dots, that is them not doing 
their homework and working with Indian Country and preparing an 
awareness and a visibility that understands who the community 
is that it is trying to target.
    Ms. Wasserman Schultz. When you have a president of the 
United States who, even today, continues to malign the Native 
American community by disparaging a candidate--a Democratic 
candidate for president with a derisive--intentionally derisive 
and offensive moniker.
    You can see what kind of respect they lack for the Native 
American community and the goal of counting them.
    Mr. Chairman, thank you so much. I yield back.
    Mr. Gomez. The votes have been called and there is about 
nine minutes on the clock. So, after I am done with my 
questioning we will adjourn this hearing.
    So, I recognize myself for questions.
    First, let me thank all the panelists for coming. This is 
an issue that--I studied the census when I was in grad school 
back in 2001 and 2002. So, yes, I was that dork who studied the 
census.
    But I also understood what it means, right, in the history 
of this country, what it means when it comes to either the 
marginalization or the empowerment of particular communities, 
and what it means for drafting policies that reflect that 
changing demographic where people live, how they live, what 
they look like, what are the issues that they are getting 
impacted by.
    And that is what the census is all about. I want to 
encourage my colleagues on the other side of the aisle that the 
census is not--shouldn't be used to marginalize communities, to 
silence voices, because the changing demographics that are 
occurring in this country I believe, and I have been seeing it 
for the last 20, 30 years, is inevitable.
    As sure as the sun rises in the east and sets in the west, 
it will occur, and there are brown Latinos that live in rural 
Georgia, Asians that live in the Midwest as well as African 
Americans that live in the northeast, right.
    This country is just changing. So, we want to make sure 
that everybody is counted because that is how you have a truly 
representative democracy.
    So, with that, I want to kind of ask a few questions.
    Mr. Vargas, you are familiar with my district.
    Mr. Vargas. Yes, sir. I am a constituent.
    [Laughter.]
    Mr. Gomez. I want to just have a question. A lot of people 
talked about partnership specialists.
    What have you been hearing on the ground about the 
effectiveness of the newly hired partnership specialists within 
the Latino community and are they generally fluent in Spanish 
and are they culturally sensitive?
    Mr. Vargas. Some are, and in fact they have hired some very 
excellent partnership specialists across the country that we 
have had the opportunity to work with.
    But there also have been other partnerships with 
specialists that in our opinion have been not well deployed in 
the sense that they don't have the skill sets, the language to 
work in the community where they are being deployed by the 
Census Bureau, and in other cases because of the timing and the 
rush to hire enough people they are not adequately trained. And 
so they are misinformed about the full range of the census 
operation.
    So, those are the concerns that we have at this point.
    Mr. Gomez. Thank you.
    Another issue that is becoming extremely urgent in 
California is just the growing homelessness population. It is 
something that I know that there is a 130,000-plus homeless 
individuals in California, 58,000 in L.A. County alone.
    Ms. Gupta, what do you see as the barriers to counting the 
homeless population and do you think that the Census Bureau has 
the strategy to actually ensure that they are counted?
    Ms. Gupta. Well, they are among the most vulnerable 
population. The Bureau in part because of their transients in 
communities and the like and I think--and the Bureau is really 
going to need to work with direct service providers, mobile 
food units, shelter, soup kitchens and the like as well as 
enumerating at outdoor locations and some 24-hour businesses to 
get an accurate count.
    The Bureau does have some strategies that they have put in 
place but we have been urging them to do more with direct 
service providers in the way that I just--that I just mentioned 
and also to coordinate really intensively with hard-to-count 
community leaders to prepare a lot of community leaders that 
are running these direct service soup kitchens and the like. 
They know where the homeless populations are seasonally in 
their districts.
    And so having a very close net coordination is going to be 
really vital to ensuring that homeless people are counted.
    Mr. Gomez. And one of the things that I would just like to 
point out is that homelessness is not just occurring in 
California but throughout the country.
    Ms. Gupta. Yes.
    Mr. Gomez. And that is going to be a challenge for blue 
states as well as red states, urban areas as well as rural 
areas.
    So, thank you so much for all the witnesses for being here 
and testifying on this important issue. Now it is time to make 
sure that we get the count that we need.
    Before I end with some announcements, I would like to give 
the ranking member a few seconds to thank the witnesses.
    Mr. Jordan. I thank the chairman. Yes, we had a debate 
there at the front end and I didn't get a chance to thank you 
all for being here. Appreciate what you do and appreciate your 
testimony today.
    Thank you.
    Mr. Gomez. Thank you to the ranking member.
    First, this is the first in a series we will be having on 
census oversight this year and we will be sure to raise these 
points that you have made with the Director of the Census 
Bureau Dillingham when he comes before the committee on 
February 12 as mentioned earlier.
    So, I want to just thank everybody for their hard, hard 
work.
    Without objection, all members will have five legislative 
days within which to submit additional written questions for 
the witnesses to the Chair, which will be forwarded to the 
witnesses for their response.
    I ask our witnesses to please respond as promptly as you 
are able. Thank you for participating and this hearing is now 
adjourned.
    [Whereupon, at 1:58 p.m., the committee was adjourned.]

                                 [all]
</pre></body></html>
